U.S. Department of Agriculture
 Office of Inspector General
       Audit Report


    FOOD AND NUTRITION SERVICE
      NATIONAL SCHOOL LUNCH
     AND BREAKFAST PROGRAMS
      DISTRICT OF COLUMBIA



.




                 Audit Report No.
                 27010-15-HY
                 August 1998
TABLE OF CONTENTS


CHAPTER 1 - EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . .     1

                  PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . .     1

                  RESULTS IN BRIEF    . . . . . . . . . . . . . . . . . . . .   1

                  KEY RECOMMENDATIONS . . . . . . . . . . . . . . . . . . .     3

                  AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . .     3


CHAPTER 2 - INTRODUCTION    . . . . . . . . . . . . . . . . . . . . . . . . .   4

                  BACKGROUND    . . . . . . . . . . . . . . . . . . . . . . .   4

                  OBJECTIVES    . . . . . . . . . . . . . . . . . . . . . . .   7

                  SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . .     7

                  METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . .     8


CHAPTER 3 - ISSUE I

            NSLP AND SBP FUNDS WERE USED FOR UNAUTHORIZED
            PURPOSES . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                Finding No. 1 . . . . . . . . . . . . . . . . . . . . . . . 11

                  Recommendation No. 1a . . . . . . . . . . . . . . . . . . 12
                  Recommendation No. 1b . . . . . . . . . . . . . . . . . . 13


CHAPTER 4 - ISSUE II

            THE SA CLAIMED MEALS THAT DID NOT MEET
            NUTRITIONAL REQUIREMENTS . . . . . . . . . . . . . . . . . . . 14

                Finding No. 2 . . . . . . . . . . . . . . . . . . . . . . . 14

                  Recommendation No. 2a . . . . . . . . . . . . . . . . . . 15
                  Recommendation No. 2b . . . . . . . . . . . . . . . . . . 15




USDA/OIG-A/27010-15-HY     August 1998                                    Page i
CHAPTER 5 - ISSUE III

            THE SFA CLAIMED REIMBURSEMENT FOR MORE MEALS
            THAN THE NUMBER OF ELIGIBLE APPLICANTS . . . . . . . . . . . . 16

                Finding No. 3 - SFA Did Not Properly Count
                Program Applicants . . . . . . . . . . . . . . . . . . . . 17

                  Recommendation No. 3a . . . . . . . . . . . . . . . . . . 18
                  Recommendation No. 3b . . . . . . . . . . . . . . . . . . 18

                Finding No. 4 - Attendance Reports May Not Have
                Been Accurate . . . . . . . . . . . . . . . . . . . . . . . 18

                  Recommendation No. 4a . . . . . . . . . . . . . . . . . . 21
                  Recommendation No. 4b . . . . . . . . . . . . . . . . . . 21

                Finding No. 5 - Excess Meals Claimed For
                Reimbursement . . . . . . . . . . . . . . . . . . . . . . . 21

                  Recommendation No. 5   . . . . . . . . . . . . . . . . . . 22


CHAPTER 6 - ISSUE IV

            PROGRAM MONITORING NEEDS IMPROVEMENT   . . . . . . . . . . . . . 23

                Finding No. 6 - The SA And SFA Do Not Operate
                Independently . . . . . . . . . . . . . . . . . . . . . . . 23

                  Recommendation No. 6   . . . . . . . . . . . . . . . . . . 24

                Finding No. 7 - The SA Did Not Adequately Monitor
                SFA Operations . . . . . . . . . . . . . . . . . . . . . . 24

                  Recommendation No. 7a . . . . . . . . . . . . . . . . . . 25
                  Recommendation No. 7b . . . . . . . . . . . . . . . . . . 26

                Finding No. 8 - The SFA Did Not Conduct Reviews Of
                District Of Columbia Public Schools . . . . . . . . . . . . 26

                  Recommendation No. 8a . . . . . . . . . . . . . . . . . . 27
                  Recommendation No. 8b . . . . . . . . . . . . . . . . . . 27
                  Recommendation No. 8c . . . . . . . . . . . . . . . . . . 27

                Finding No. 9 - Coordinated Reviews Did Not Follow
                Up On Critical Violations . . . . . . . . . . . . . . . . . 28




USDA/OIG-A/27010-15-HY   August 1998                                    Page ii
                  Recommendation No. 9a . . . . . . . . . . . . . . . . . . 30
                  Recommendation No. 9b . . . . . . . . . . . . . . . . . . 30
                  Recommendation No. 9c . . . . . . . . . . . . . . . . . . 30


CHAPTER 7 - ISSUE V

            IMPROVEMENTS ARE NEEDED IN CONTRACT ADMINISTRATION                             . . . . . . 31

                Finding No. 10 - Terms And Conditions Of The Contracts
                Were Not Met . . . . . . . . . . . . . . . . . . . . . . . 32

                  Recommendation No. 10 . . . . . . . . . . . . . . . . . . 34

                Finding No. 11 - Contractors Did Not Comply With
                Invoicing Procedures . . . . . . . . . . . . . . . . . . . 34

                  Recommendation   No.   11a   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   36
                  Recommendation   No.   11b   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   36
                  Recommendation   No.   11c   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   36
                  Recommendation   No.   11d   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   36
                  Recommendation   No.   11e   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   36
                  Recommendation   No.   11f   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   37
                  Recommendation   No.   11g   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   37

                Finding No. 12 - Payments for Food Service Workers
                Exceeded Contract Amount . . . . . . . . . . . . . . . . . 37

                  Recommendation   No.   12a   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   40
                  Recommendation   No.   12b   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   40
                  Recommendation   No.   12c   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   40
                  Recommendation   No.   12d   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   40


CHAPTER 8 - ISSUE VI

            CONTROLS OVER PERSONNEL POSITIONS AND SALARY
            COST ALLOCATIONS WERE INADEQUATE . . . . . . . . . . . . . . . 41

                Finding No. 13 - Unallowable Salary Costs Were Charged
                to the NSLP and SBP . . . . . . . . . . . . . . . . . . . . 42

                  Recommendation   No.   13a   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   43
                  Recommendation   No.   13b   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   44
                  Recommendation   No.   13c   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   44
                  Recommendation   No.   13d   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   44

                Finding No. 14 - Personnel Positions Had Not Been
                Properly Approved . . . . . . . . . . . . . . . . . . . . . 44




USDA/OIG-A/27010-15-HY   August 1998                                                                   Page iii
                   Recommendation No. 14a   . . . . . . . . . . . . . . . . . 45
                   Recommendation No. 14b   . . . . . . . . . . . . . . . . . 45
                   Recommendation No. 14c   . . . . . . . . . . . . . . . . . 45


CHAPTER   9 - ISSUE VII

              GRANT FUNDS WERE IMPROPERLY USED FOR
              REDUCTION-IN-FORCE AND RETIREMENT INCENTIVE
              PAYMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

                 Finding No. 15   . . . . . . . . . . . . . . . . . . . . . . 46

                   Recommendation No. 15a   . . . . . . . . . . . . . . . . . 47
                   Recommendation No. 15b   . . . . . . . . . . . . . . . . . 47


CHAPTER 10 - GENERAL COMMENTS . . . . . . . . . . . . . . . . . . . . . . . 48


CHAPTER 11 - EXHIBIT A - SUMMARY OF MONETARY RESULTS    . . . . . . . . . . . 50


CHAPTER 12 - EXHIBIT B - EXCESS REIMBURSEMENT RECEIVED FOR FREE
                         AND REDUCED PRICE MEALS . . . . . . . . . . . . . 51


CHAPTER 13 - EXHIBIT C - COMPARISON BETWEEN FNS 10 REPORT,
                         WEEKLY TALLY REPORT, AND TRANSMITTAL FORM    . . . . 59


CHAPTER 14 - EXHIBIT D - AUDIT SITES    . . . . . . . . . . . . . . . . . . . 60


CHAPTER 15 - EXHIBIT E - FNS’ RESPONSE TO THE DRAFT
                         AUDIT REPORT . . . . . . . . . . . . . . . . . . . 61


CHAPTER 16 - ABBREVIATIONS   . . . . . . . . . . . . . . . . . . . . . . . . 62




USDA/OIG-A/27010-15-HY    August 1998                                    Page iv
                                 CHAPTER 1 - EXECUTIVE SUMMARY


Purpose                  This report presents the results of our audit of the
                         District of Columbia’s operation of the National
                         School Lunch Program (NSLP) and the School Breakfast
                         Program (SBP), both administered by the U.S.
                         Department of Agriculture, Food and Nutrition Service
                         (FNS). Our audit was performed at the request of FNS
                         officials, and was also included as part of the
                         Office of Inspector General (OIG) Fiscal Year (FY)
                         1998 Annual Plan.

                         Each school district that offers these programs
                         establishes a school food authority (SFA) to oversee
                         the day-to-day operations of the programs, and each
                         State agency (SA) monitors the SFA’s within its
                         State. In the District of Columbia, the functions of
                         both the SFA and SA are performed by the same
                         division of the public school system.

                         We reviewed program operations for school years (SY)
                         1995/1996 and 1996/1997.     Our objectives were to
                         determine if the programs were properly monitored, if
                         procurement policies were adhered to, and if
                         financial   controls    over   program    funds   and
                         reimbursement claims were adequate.

Results In Brief         We found that the District’s school system did not
                         provide adequate oversight of the operation of the
                         NSLP and the SBP during SY’s 1995 and 1996.
                         Financial   controls   over   program   funds   and
                         reimbursement claims were inadequate, procurement
                         policies were not always adhered to, and monitoring
                         activities did not always disclose deficiencies or
                         ensure that those deficiencies that were disclosed
                         had been corrected.

                         A March 1998 Coordinated Review Assessment conducted
                         by the FNS Mid-Atlantic Regional Office (MARO)
                         identified similar weaknesses in program operations.
                         To date, controls have not been established to reduce
                         the occurrence of problems identified during our
                         review. Therefore, MARO and the SA need to develop
                         a comprehensive plan for improving management
                         controls in all areas of the NSLP and SBP.




USDA/OIG-A/27010-15-HY     August 1998                                     Page 1
                         The former Controller for District of Columbia Public
                         Schools (DCPS) improperly approved program funds to
                         pay   nonprogram    costs,   and   schools    claimed
                         reimbursement for meals that were ineligible.
                         Monitoring activities conducted by the SA and SFA did
                         not detect these deficiencies.

                               The District used $4.2 million in   program funds
                               to pay school utility bills          and special
                               education expenses. In neither      case did the
                               Board of Education authorize the    payments.

                               The District claimed reimbursement for meals
                               that did not contain the required meal
                               components.   The vendor delivering the meals
                               violated    the   terms   of   its   contract.
                               Procurement officials were aware the violation
                               occurred on at least 2 days, but the accounts
                               manager who filed the $44,994 reimbursement
                               claim for the 2 days was not told of the
                               discrepancies. The contract was in effect for
                               more than 150 days.

                               Because the SFA did not verify school
                               attendance and did not reconcile the number of
                               students participating in the program with the
                               number of meals actually served, schools
                               claimed meals in excess of their eligible
                               applications.    For the seven schools we
                               reviewed, the overclaim totaled $6,839.

                         We also determined that the school system needed to
                         improve its administration of school lunch contracts.
                         Payments for food service workers exceeded the
                         $340,000 contract by $631,472. In addition, $113,548
                         of this amount was not used for allowable program
                         purposes.   In a separate case, a vendor failed to
                         deliver on its contract in spite of repeated warnings
                         of damage assessments by the District.        Another
                         $2.4 million in program costs was not supported by
                         delivery documents.

                         Controls over the payment of salaries and bonuses
                         were insufficient to preclude the use of program
                         funds to pay for activities that were not in support
                         of the NSLP and SBP.     The programs were charged
                         $399,745 for the salaries of employees who no longer
                         worked for the programs and employees whose hiring
                         had not been approved. The programs were also




USDA/OIG-A/27010-15-HY     August 1998                                       Page 2
                         charged $160,210 for retirement and severance
                         payments even though officials of DCPS did not obtain
                         FNS’ approval for this use of funds.

                         We found that State revenue matching requirements for
                         the NSLP had been met in each year reviewed.

Key Recommendations      We recommend that $4.2 million be refunded to the
                         program for unallowable expenses and another $250,941
                         be refunded to FNS for contract overpayments,
                         reimbursement   of   ineligible    meals,   excessive
                         reimbursements for meals served, and nonprogram
                         employee salaries. In addition, the District needs
                         to support $2.4 million in contract payments and
                         obtain approval of $325,184 in salaries and $160,210
                         in severance payments, or refund the amounts to FNS.

                         To improve future operations, we recommend that the
                         District develop procedures which, among other
                         things, ensure that (1) costs charged to the NSLP and
                         SBP are allowable, (2) figures for school enrollment,
                         attendance, and program participation are accurate,
                         (3) invoices are reconciled to delivery documents,
                         and (4) employees paid from NSLP and SBP funds are
                         performing duties in support of these programs.

Agency Response          The results of the audit were discussed with FNS
                         officials on August 26, 1998. FNS agreed with the
                         issues and recommendations reported and will work
                         with the District to obtain corrective action.




USDA/OIG-A/27010-15-HY     August 1998                                     Page 3
                                    CHAPTER 2 - INTRODUCTION



Background               On June 4, 1946, Congress passed the National School
                         Lunch Act (42 U.S.C. 1751) which authorizes Federal
                         school lunch assistance. The intent of the National
                         School Lunch Act is to safeguard the health and
                         well-being of the Nation’s children and to encourage
                         the domestic consumption of nutritious agricultural
                         commodities and other food by helping States provide
                         food and facilities for the operation of non-profit
                         school lunch programs.

                         The National School Lunch Act, as amended, authorizes
                         the payment of general and special cash assistance
                         funds to States based on the number and category of
                         lunches served, whether free, reduced price, or paid.
                         General program requirements are outlined in Title 7,
                         Code of Federal Regulations (7 CFR), Part 210.

                         Section 4 of the Child Nutrition Act of 1966, as
                         amended, authorizes payments to the States to assist
                         them to initiate, maintain, or expand nonprofit
                         breakfast programs in schools.      General program
                         requirements are outlined in 7 CFR, Part 220.

                         The FNS is the U.S. Department of Agriculture (USDA)
                         agency responsible for administering the NSLP and
                         SBP. FNS is headquartered in Alexandria, Virginia,
                         and has seven regional offices nationwide which
                         administer the NSLP and SBP. The FNS Mid-Atlantic
                         Regional Office (MARO), located in Robbinsville, New
                         Jersey, is responsible for overseeing the NSLP and
                         the SBP in the District of Columbia.

                         Each State agency (SA) is required to enter into a
                         written agreement with FNS to administer the NSLP and
                         SBP.   SA’s enter into agreements with school food
                         authorities (SFA) to oversee the day-to-day operation
                         of the NSLP and SBP.       The SFA’s represent the
                         governing body that administers the NSLP and SBP in
                         one or more schools. The District of Columbia SA has
                         oversight responsibility for the DCPS SFA and the
                         SFA’s for six private schools.      For SY 1996, the
                         District of Columbia SFA received reimbursements
                         totaling about $17 million for meals claimed under




USDA/OIG-A/27010-15-HY     August 1998                                     Page 4
                         the NSLP and SBP.

                         SA’s are required to conduct a coordinated review of
                         SFA’s every 5 years. Coordinated reviews include a
                         review of the SFA’s eligibility certification,
                         applications, benefits issuance, meal counting and
                         claiming, meal components, eligibility requirements
                         for free and reduced price meals, civil rights
                         compliance, and monitoring responsibilities for meal
                         counting and claiming.    The SA’s are required to
                         complete a minimum number of coordinated reviews
                         based on a formula provided by FNS. During the 5-
                         year reporting period ending June 1997, the DCPS SA
                         was required to complete 21 school reviews.

                         Each SFA is required to perform an annual onsite
                         review of each school within its jurisdiction. This
                         includes a review of the certification, meal
                         counting, and claiming systems used in each school.
                         In SY’s 1996 and 1997, the DCPS SFA was required to
                         complete 161 onsite reviews.

                         Eligibility of children for free or reduced price
                         meals is based upon their family’s household size and
                         income. States are reimbursed at specific rates for
                         each free, reduced price, and paid lunch or breakfast
                         served by the SFA. The rates are established by FNS
                         on an annual basis, effective for the period July 1
                         to June 30.

                         Section 111 of Public Law 103-448 amended Section
                         11(a) (1) of the National School Lunch Act to provide
                         a new meal counting and claiming procedure for
                         schools with high percentages of children eligible
                         for free and reduced price meals referred to as
                         Provision 3. Schools opting for this alternative are
                         not required to make annual free and reduced price
                         eligibility determinations or take daily meal counts.
                         Meal reimbursement and commodity assistance are
                         provided at the same level as the school received in
                         the last year free and reduce price applications were
                         taken and daily meal counts by category were made,
                         adjusted for inflation and enrollment.

                         Under Provision 3, schools (1) serve meals free to
                         all children for a period not to exceed 4 successive
                         school years; (2) receive Federal cash and commodity
                         assistance equal to the level of assistance the
                         school received for the last year in which free and




USDA/OIG-A/27010-15-HY     August 1998                                     Page 5
                         reduced price eligibility determinations and meal
                         counts by eligibility category were made (the "base
                         year"), adjusted annually to account for changes in
                         inflation and school enrollment; and (3) must make up
                         the difference between Federal program assistance and
                         the cost of the meals from sources other than Federal
                         funds.

                         Over the last several years, there has been a
                         large-scale restructuring of the District’s public
                         schools, including the replacement of high level
                         officials. In 1996, Congress appointed the District
                         of Columbia Financial Responsibility and Management
                         Assistance Authority, more commonly referred to as
                         the "Control Board," to oversee the financial
                         management of the District of Columbia and work
                         towards a balanced budget. To address concerns within
                         the public school system, the Control Board
                         established the Emergency Transitional Education
                         Board, which appointed the school superintendent as
                         its chief executive officer (CEO).

                         Within the District’s public school system, the CEO
                         is responsible for overall operations and management.
                         Four offices report to the CEO. Our audit focused
                         primarily on operations carried out by two of these:
                         the Office of the Chief Operating Officer and the
                         Office of the Chief Financial Officer. As part of
                         our review of contracts, we also reviewed procurement
                         issues within the Contract Administration Division
                         which handles all large purchases of the school
                         district.

                         The Office of the Chief Operating Officer delivers
                         services that support the educational mission of the
                         District’s public school system.     Seven divisions
                         provide integrated core support services.         One
                         division, the Division of Food and Nutrition
                         Services, provides Federal school lunch, breakfast,
                         and special nutrition programs, and oversees the
                         dining facilities operation, inventory storage and
                         delivery, and manages Federal, State, and local funds
                         to ensure regulatory compliance. In the District’s
                         public school system, the Division of Food and
                         Nutrition Services performs functions of both the SFA
                         and the SA.




USDA/OIG-A/27010-15-HY     August 1998                                     Page 6
                         The Office of the Chief Financial Officer is
                         responsible for planning and monitoring the financial
                         needs of the school system. There are two divisions
                         under this office: the Division of Finance and the
                         Division of Budget Services. The Division of Finance
                         is responsible for providing accounting services to
                         the school system, and the Budget Services Division
                         is    responsible    for    budget    analysis    and
                         implementation, and for grant analysis.

Objectives               The objectives of our audit were to determine
                         (1) whether monitoring activities over NSLP and SBP
                         operations were adequate, (2) whether financial
                         controls over NSLP and SBP reimbursements and
                         expenditures   were    functioning   as   intended,
                         (3) whether procurement policies were being adhered
                         to, and (4) whether financial controls over State
                         revenue matching requirements for the NSLP were
                         adequate.

Scope                    Our review focused on the District schools’
                         administration of the NSLP and SBP and covered SY’s
                         1995/1996 and 1996/1997 operations, with other years
                         reviewed as deemed necessary.     We performed audit
                         work at the FNS Regional Office in Robbinsville, New
                         Jersey, and the District school’s divisions under the
                         Chief Operating Officer and Chief Financial Officer
                         located in Washington, DC.

                         In SY’s 1995 and 1996, there were 121 elementary
                         schools, 22 junior high schools, and 18 high schools
                         for public education in Washington, D.C. Of these,
                         161 public schools and 6 private schools participated
                         in the NSLP and SBP. We conducted a review of seven
                         schools, which included four elementary schools, one
                         junior high school, and one high school, each having
                         the largest student enrollments over 500 at their
                         respective educational levels. We also selected one
                         additional elementary school with an enrollment of
                         less than 500 students to include audit coverage at
                         the smaller schools. (See exhibit D.)

                         As part of our review, we evaluated controls over the
                         $22,056,526 in expenses charged to the NSLP and SBP
                         for SY 1996 by evaluating 57 percent of the costs
                         charged to the grants, reimbursements claimed, and
                         administrative expenses charged by the District. Our
                         review of the SFA’s claims for reimbursement
                         encompassed an evaluation of the SFA’s prior and




USDA/OIG-A/27010-15-HY     August 1998                                     Page 7
                         current   procedures   for  recording   meals   and
                         documenting claims for reimbursement under the NSLP
                         and SBP.

                         We evaluated the adequacy of procedures used to
                         ensure compliance with provisions of contract
                         agreements and applicable laws and regulations for
                         the procurement of goods and services to determine if
                         weaknesses disclosed in prior contracts could occur
                         under current methods of operation.

                         During the audit, we encountered difficulties
                         obtaining specific documentation needed to satisfy
                         the audit objectives.    We were not provided with
                         contract files for one of the contracts selected for
                         review. Therefore, we were unable to fully evaluate
                         the selection process or the vendor’s qualifications
                         to satisfy the contract requirements.

                         Officials responsible for NSLP and SBP operations
                         during our review period were no longer employed with
                         the DCPS system, and additional turnover of key
                         personnel occurred during our field work. Therefore,
                         we had to obtain much of our information from newly
                         employed officials with limited knowledge of prior
                         operations as they relate to the NSLP and SBP.

                         Audit work was performed in accordance with generally
                         accepted government auditing standards.

Methodology              To accomplish our audit objectives, we performed the
                         following in our evaluation of DCPS operations of the
                         NSLP and SBP.

                               We discussed current operations with officials
                               of the MARO, SFA, SA, and divisions within the
                               DCPS Office of the Chief Financial Officer.

                               We reviewed School Lunch and Breakfast Program
                               regulations and procedures, Single Audit
                               reports for the DCPS for FY’s ending 1993
                               through 1996, United States Code Title 31,
                               7 Code of Federal Regulation (CFR) 3015, and
                               DCPS procurement policies and other applicable
                               regulations.

                               We evaluated the adequacy of controls over
                               expenses charged to the NSLP and SBP grants by
                               selecting the major cost categories of charges




USDA/OIG-A/27010-15-HY     August 1998                                     Page 8
                         against the grants for SY 1996, with other years’
                         activities reviewed as necessary.

                              We reviewed personnel charges to the NSLP and
                              SBP grants, which included a review of
                              employees   personnel    files    and   related
                              documents, in addition to conducting interviews
                              with selected employees.

                              We reviewed compliance with the State revenue
                              matching requirements.

                              We reviewed supporting documentation for
                              enrollment, approved applications, and meals
                              claimed at selected schools for SY’s 1995 and
                              1996.

                              We analyzed the monitoring efforts of the SFA
                              through a review of all 138 onsite reviews
                              conducted during SY 1995 and 80 reviews in SY
                              1996.

                              We analyzed the monitoring efforts of the SA
                              through a review of all 25 school reviews
                              completed in SY’s 1995 and 1996.

                              In SY 1995/1996, there were 121 elementary
                              schools, 22 middle schools, and 18 high schools
                              for public education in Washington, D.C.
                              According to FNS officials, participation in
                              the NSLP and SBP has traditionally been higher
                              in   elementary   schools    as   compared   to
                              participation at the middle school and high
                              school levels. Therefore, our sample universe
                              included 40 elementary schools with a student
                              enrollment of 500 or more.

                              We randomly selected 4 of these elementary
                              schools, namely, Turner, Wilkinson, Raymond,
                              and Meyer, to determine compliance with
                              performance standards related to eligibility
                              certification, counting, and claiming. We also
                              randomly selected Amidon school from our
                              universe of 8 elementary schools with an
                              enrollment of less than 500 students.      For
                              representation at the middle and high school
                              levels, we selected Lincoln and Eastern,
                              respectively because each maintained the
                              largest enrollments at their educational




USDA/OIG-A/27010-15-HY    August 1998                                     Page 9
                         levels. Three of these schools (Wilkinson, Lincoln,
                         and Raymond) were converted to Provision 3 schools in
                         school year 1996. Under Provision 3, schools serve
                         all meals at no charge for a period of 4 successive
                         years.     Free   and   reduced   price   eligibility
                         determinations and meal counts are not required.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 10
                                          CHAPTER 3 - ISSUE I
                                     NSLP AND SBP FUNDS WERE USED
                                       FOR UNAUTHORIZED PURPOSES


Finding No. 1            Controls over National School Lunch Program (NSLP)
                         and School Breakfast Program (SBP) funds were
                         inadequate to ensure that funds were properly
                         accounted for and used only for purposes authorized
                         under the Federal/State Agreement for the District of
                         Columbia State Agency (SA). Monitoring and oversight
                         by the SA and the School Food Authority did not
                         ensure the program was operating as intended
                         (see Issue IV).    As a result, unallowable costs
                         exceeding $4.2 million were charged to the NSLP.
                         (See exhibit A.)

                         We found two instances in which the DCPS used NSLP
                         and SBP funds to pay expenses that were not related
                         to either of these programs.    Regulation1 requires
                         revenues received by school food services to be used
                         only for the operation or improvement of the
                         nonprofit food service.    In addition, regulation2
                         requires   that    effective   control    over   and
                         accountability for all USDA grant or subgrant funds
                         shall be maintained.    Recipients shall adequately
                         safeguard all such property and shall ensure that it
                         is used solely for authorized purposes.

                         On July 1, 1996, the former controller of the DCPS
                         Division of Finance approved a journal entry to
                         transfer   utility   expenses   from    a  District
                         appropriated account to the NSLP.    As a result of
                         this approval, $2.5 million in District utility
                         expenses were charged to the NSLP.

                         The former controller stated that in June 1996, the
                         DCPS was billed $2.5 million for its schools’ use of
                         gas. The District of Columbia Budget Office would
                         not allow the bill to be paid from general school




     1
            7 CFR 210.14(a), dated January 1, 1996.

     2
            7 CFR 3015.61(c), dated January 1995.




USDA/OIG-A/27010-15-HY      August 1998                                   Page 11
                         funds due to a shortage. Since there was a balance
                         of approximately $8 million in the NSLP account,
                         the decision was made to transfer funds from the NSLP
                         to pay the gas bill.

                         A similar transaction occurred on August 21, 1995.
                         The former controller approved a journal entry to
                         transfer $1,747,700 in personnel expenses for special
                         education to the NSLP and SBP because of an available
                         balance of approximately $9 million.     The journal
                         entry memo stated that the transfer had been approved
                         by the Board of Education.     The former controller
                         added that he thought these matters were brought
                         before the school board for approval.

                         We reviewed the Board of Education’s reprogramming
                         request file.     This file included a record of
                         decisions made by the Board of Education to reprogram
                         or transfer funds from one account to another.
                         However, we were unable to identify any reprogramming
                         requests that would support the 1995 transfer of
                         special education expenses or the 1996 transfer of
                         gas expenses to the NSLP.

                         When costs are allocated in accordance with a
                         government-wide cost allocation plan or when treated
                         as indirect costs, acceptance of the costs as part of
                         the indirect cost rate or cost allocation plan
                         constitutes approval. Recognizing that gas may be an
                         operating cost of the NSLP and SBP, we reviewed the
                         FY 1996 budget for the DCPS’ Division of Food and
                         Nutrition, and documents obtained from the Financial
                         Management System for FY’s 1995, 1996, and FY 1997
                         through August to determine how gas costs are
                         allocated or charged. We noted that gas was not a
                         budgeted item.

                         DCPS officials could not provide us with an indirect
                         cost plan outlining the allocation for gas expenses
                         to support the charge to the NSLP and SBP. In
                         addition, the SA director, who is responsible for the
                         use of Federal funds, was not notified that NSLP
                         funds were used to pay gas expenses. (She had not
                         been SA director at the time the special education
                         expenses were transferred.)

Recommendation           Direct the SA to require the DCPS to refund, to the
No. 1a                   school food service account, the $4,247,700 in
                         unallowable costs charged to the NSLP and SBP.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 12
Recommendation           Direct the SA to require the SFA to develop controls
No. 1b                   to ensure that costs charged to the NSLP and SBP are
                         allowable and in accordance with terms and conditions
                         of the grant agreement.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 13
                                     CHAPTER 4 - ISSUE II
                            THE SA CLAIMED MEALS THAT DID NOT MEET
                                   NUTRITIONAL REQUIREMENTS

Finding No. 2            The SFA did not always have an adequate supply of
                         menu components to ensure that meals claimed under
                         the NSLP and SBP met the minimum requirements of the
                         USDA School Lunch pattern. The contractor, Harbor
                         Peak, violated provisions of its contract to provide
                         the components, but the SFA improperly included the
                         meals in its reimbursement claim. The SFA did not
                         recognize the meals as ineligible because it did not
                         properly monitor the program (see Issue IV).      We
                         reviewed claims for 2 days of the 1996 school year
                         and question reimbursements totaling $44,994 for
                         ineligible lunches served on those 2 days.      (See
                         exhibit   A.)     The   SA   claimed  and   received
                         reimbursements for 4,687,767 lunches and 1,526,107
                         breakfasts served during the entire period the
                         contract was in effect (January to June 1996).

                         According to 7 CFR 210.2 and 210.9, the SFA shall
                         enter into a written agreement with the SA which
                         states that the SFA and participating schools under
                         its jurisdiction shall serve lunches which meet the
                         minimum requirements as prescribed in 7 CFR 210.10.
                         In addition, 7 CFR 210.10a(b), states, in part, that
                         the SFA shall ensure that participating schools
                         provide nutritious and well-balanced lunches to
                         children, and that the SFA shall ensure that
                         sufficient quantities of food are planned and
                         produced so that lunches provided contain all the
                         required food items.

                         According to 7 CFR 220.8a, a breakfast eligible for
                         Federal cash reimbursement shall contain, at a
                         minimum, the following food components in the
                         quantities specified: a serving of fluid milk served
                         as a beverage or on cereal; a serving of fruit or
                         vegetable or both, or full-strength fruit or
                         vegetable juice; and, two servings from a bread/bread
                         alternate or meat/meat alternate.

                         The former Superintendent for DCPS entered into a
                         contract with Harbor Peak to provide preplated




USDA/OIG-A/27010-15-HY     August 1998                                    Page 14
                         breakfast and lunch menu components to 110 District
                         public schools to be phased in as the schools
                         obtained the necessary equipment to warm and store
                         the preplated meals. Harbor Peak was to provide meat
                         and meat alternates, fruits and vegetables, bread and
                         bread alternates, desserts, and breakfast items as
                         outlined in the planned menu prepared by the quality
                         control unit for the District’s schools. Harbor Peak
                         submitted a written acknowledgement showing receipt
                         of the menu which represented a binding commitment to
                         supply food components as specified.

                         We noted that in correspondence to the procurement
                         branch, the SFA Director expressed concerns regarding
                         Harbor Peak’s failure to deliver meals and various
                         meal components.    In a May 3, 1996, memorandum to
                         procurement branch officials, the SFA Director
                         requested that reimbursement be obtained from the
                         contractor because on April 25 and 26, 1996, the
                         contractor failed to deliver 26,826 complete meals to
                         54 schools. The SFA Director further stated that the
                         meals lacked a fruit or vegetable, and as a result,
                         $44,994 in USDA reimbursements was lost.

                         We reviewed the weekly tally sheets for 5 of the
                         54 schools referred to in the May 3, 1996, memorandum
                         and noted that the SFA claimed and received
                         reimbursement    from    USDA    for   4,046    free,
                         reduced-price, and paid preplated meals served at the
                         5 schools on April 25 and 26, 1996. An SFA official
                         stated that reimbursements were received for all
                         26,286 meals, and the accounts payable manager stated
                         that she was not informed that the $44,994 claim was
                         not to be made for the meals served on those 2 days.

Recommendation           Direct the SA to require the SFA to develop controls
No. 2a                   to improve the process for claiming reimbursements.

Recommendation           Establish a claim for the $44,994 identified in this
No. 2b                   review for meals that did not meet Federal
                         requirements for reimbursements.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 15
                                        CHAPTER 5 - ISSUE III
                                 THE SFA CLAIMED REIMBURSEMENT FOR
                                     MORE MEALS THAN THE NUMBER
                                       OF ELIGIBLE APPLICANTS


                          Procedures used to ensure the accuracy of claims
                          submitted to FNS for reimbursement of meals served
                          under the NSLP and SBP were inadequate. The SFA did
                          not verify student attendance at each school in the
                          District and did not reconcile the number of students
                          participating in the program with the number of meals
                          actually served. A March 1998 review conducted by
                          MARO confirmed systemic meal counting and claiming
                          problems.

                          Inaccuracies in the SFA’s claims were not detected
                          because of inadequate monitoring and oversight by the
                          SA (see Issue IV). We determined that for the 1995
                          and 1996 school years, the District’s claims for
                          reimbursement for the schools reviewed3 exceeded the
                          number of eligible applicants by 4,160 free meals,
                          valued at $6,779, and 48 reduced price meals, valued
                          at $60. (See Finding No. 5.)

                          Regulations4 require each SFA to ensure that claims
                          for reimbursement are limited to the number of free,
                          reduced price, and paid lunches served to eligible
                          children for each day of operation. To provide this
                          assurance, the SFA is required to establish internal
                          controls, to include comparisons of daily free,
                          reduced price, and paid lunch counts against
                          data which will assist in the identification of
                          excess lunch counts.

                          The data commonly used to establish accurate lunch
                          counts is the number of eligible applicants and the
                          attendance at each school. Our audit of




     3
            In school year 1996, three of the seven schools selected for audit were converted to
            Provision 3 schools, which are permitted to serve free meals to all students.
            Therefore, we did not include these three schools in our calculations of overclaims
            for school year 1996.

     4
            7 CFR 210.7(c) and 7 CFR 210.8(a), dated January 1, 1996.




USDA/OIG-A/27010-15-HY      August 1998                                                Page 16
                         reimbursements for seven District schools determined
                         that the SFA did not count the schools’ eligible
                         applicants properly and did not ensure that schools
                         attendance figures were accurate.

Finding No. 3            Procedures followed by the SFA to determine the
SFA Did Not Properly     number of eligible applicants for the NSLP and SBP
Count      Program       were flawed.    We found that the SFA (1) did not
Applicants               recognize students who had transferred between or out
                         of the District schools, (2) counted some applicants
                         twice, and (3) did not detect duplicate applications.
                         Therefore, required controls to assist in identifying
                         excessive lunch counts were not functioning. As a
                         result, we questioned the eligibility of 537 student
                         applicants at the 7 schools tested.

Transfers Were           As authorized under Section 9(b)(C) of the National
Not Recognized           School Lunch Act, children in families receiving food
                         stamps or Aid to Families With Dependent Children
                         (AFDC), which was replaced by Temporary Assistance
                         for Needy Families, automatically qualify for free
                         lunches under what is called "direct certification."
                         The District’s Department of Human Services (DHS)
                         maintains a file of food stamp and AFDC recipients,
                         and the school system matches this file with each
                         school’s roster to produce a list of students that
                         automatically qualify for free meals. This match is
                         based on a school’s final enrollment at the end of
                         the school year and is used to support the number of
                         eligible applications for the next school year,
                         beginning in September.         However, the final
                         enrollment may not reflect student transfers between
                         the end of one school year and the beginning of the
                         next.

                         SFA officials stated that school rosters are used to
                         document transfer students, and that there should be
                         a reconciliation of these transfers on the direct
                         certification listing using the September school
                         roster. However, we found that in six of the seven
                         schools reviewed, a record of transfers was
                         not adequately documented on school rosters or on the
                         direct certification listing.

Applicants Were          According to 7 CFR 210.8(b)(2), the SA is required to
Counted Twice            obtain, every October, the enrollment and number of
                         applications for each school. This information is to
                         be used to compare eligible meals against actual
                         meals claimed. For students who qualify for the NSLP




USDA/OIG-A/27010-15-HY     August 1998                                    Page 17
                         and SBP under direct certification, no application is
                         required, although SFA’s are not prohibited from
                         requesting them.

                         As part of our review, we compared the applications
                         approved for SY’s 1995 and 1996 to the applicable
                         direct certification lists. We found that for the
                         seven schools tested, 459 students who appeared on
                         the   direct  certification   list   also   submitted
                         applications, which resulted in double counting. A
                         reconciliation between the direct certification list
                         and applications had not been conducted to reduce the
                         occurrence of double counting.

Duplicate                We also found that the SFA’s procedures did not
Applications Were        detect duplicate applications. For the seven schools
Not Detected             in our review, we identified 63 cases in SY 1995 and
                         15 cases in SY 1996 where two applications were
                         approved for the same person. As a result, there was
                         a greater possibility that the number of students
                         determined as eligible for participation in the NSLP
                         and SBP was inflated.

Recommendation           Direct the SA to require the SFA to develop
No. 3a                   procedures to ensure the accuracy of each school’s
                         reported attendance and the number of students
                         eligible to participate in the NSLP and SBP.

Recommendation           Direct the SA to require the SFA to develop
No. 3b                   procedures that require that a reconciliation be
                         performed between the direct certification list, the
                         applications received from households, and an updated
                         school roster that accurately reflects transfer
                         students.

Finding No. 4            According to 7 CFR 210.8(a)(3), the SFA is required
Attendance Reports       to conduct an edit check by comparing each school’s
May Not Have Been        daily counts of program lunches against the number of
Accurate                 eligible applicants, adjusted by an attendance
                         factor.   The attendance factor is a percentage,
                         developed no less than once each school year, that
                         accounts for the difference between enrollment and
                         attendance.   We questioned the attendance factors
                         calculated for four of the seven schools reviewed.

                         SFA officials explained that homeroom teachers take
                         daily attendance and report the results to a data
                         entry clerk in the school principal’s office. The
                         attendance data is entered into the Student




USDA/OIG-A/27010-15-HY     August 1998                                    Page 18
                         Information System (SIS), and an attendance factor is
                         calculated.

                         In the District school system, the attendance factor
                         is developed each month, based on the prior month’s
                         attendance.    Cafeteria managers stated that they
                         prepare Weekly Tally Sheets by using the attendance
                         factor from the previous month’s activity. They also
                         stated that attendance factors and enrollment figures
                         are only provided verbally from the principal’s
                         office.   Therefore, we were unable to review the
                         source documents for the attendance factors and
                         enrollment as shown on the Weekly Tally Reports.

                         The SFA informed us that attendance factors are also
                         published in the DCPS’ Average Daily Attendance
                         report. We selected four schools and compared the
                         attendance factors shown on each school’s Weekly
                         Tally reports for October 1996, to the September 1996
                         attendance factor published in the Average Daily
                         Attendance report.    We found that the attendance
                         factors for all four schools reviewed did not agree,
                         as follows:

                             School      Weekly Tally     Daily Average     Difference
                                           Report       Attendance Report

                           Turner           91.0%            93.6%            2.6%

                           Meyer            93.0%            92.9%             .1%

                           Eastern          96.0%            93.9%            2.1%

                           Amidon           94.0%            97.3%            3.3%

                         To determine the accuracy of enrollment figures, we
                         compared the enrollment as reported on the Weekly
                         Tally Reports for the week ending October 4, 1996 to
                         the Official Membership report for the 1996 school
                         year obtained from the SIS. We found differences in
                         reported enrollment for three of four schools, as
                         follows:




USDA/OIG-A/27010-15-HY     August 1998                                            Page 19
                                   School        Weekly Tally       Membership        Difference
                                                   Report             Report

                                 Turner              661                661                0

                                 Meyer               602                609                7

                                 Eastern            1,512             1,229              283

                                 Amidon              402                409                7

                              Each year, the SA is required to submit to FNS a Form
                              FNS-10, "Report of School Program Operations," which
                              details the number of children enrolled on the last
                              day of October and the number of children approved
                              for free and reduced price meals.             Because
                              the figures on the FNS-10 are derived from the Weekly
                              Tally Reports, as prepared by the cafeteria managers,
                              the two reports should agree.

                              We compared enrollment and lunch data, as shown on
                              the October 1995 and 1996 FNS-10’s, to the Weekly
                              Tally reports for the same period. Since the number
                              of students approved for free lunch was much greater
                              than those approved for reduced price lunches, we
                              focused on the free lunches for the seven schools in
                              our sample.5    The October 1995 and 1996 FNS-10
                              reports for these schools included 11 line items for
                              total enrollment and total free lunch applicants. We
                              noted differences between the FNS-10’s and the Weekly
                              Tally reports for five enrollment line items and
                              eight free lunch line items.     In five cases, the
                              Weekly Tally report figures for the number of free
                              lunches served were greater than those figures shown
                              on the FNS-10’s.

                              We noted one case in which enrollment data reported
                              on the FNS-10 did not agree with enrollment figures
                              shown on the transmittal form that accompanies the
                              Weekly Tally report. The FNS-10 also did not agree
                              with free lunch figures on the transmittal forms from
                              three schools. (No enrollment data was reported on
                              the October 1995 transmittal for Eastern, and the
                              October 1995 transmittal for Wilkinson could not be
                              located. (See exhibit C).




    5
        For Wilkinson, Raymond, and Lincoln/Bell schools, no data was required by FNS in October 1996
        because they were Provision 3 schools during that year.




USDA/OIG-A/27010-15-HY          August 1998                                                    Page 20
                         Since the Weekly Tally reports are used as the basis
                         for reimbursements, inaccuracies in these reports
                         could result in inflated claims. The differences in
                         figures shown on documentation used to support
                         enrollment, attendance factors, and students eligible
                         to participate in the program suggest that edit
                         checks currently in place cannot ensure the accuracy
                         of claims for reimbursement of meals served under the
                         NSLP and SBP.

Recommendation           Direct the SA to require the SFA to maintain
No. 4a                   documentation to support attendance factors and
                         enrollment figures used on Weekly Tally reports.

Recommendation           Direct the SA to develop procedures and edit checks,
No. 4b                   to include a reconciliation between FNS-10’s and
                         reimbursement claims, to ensure the accuracy of
                         attendance factors, enrollment figures, and students
                         eligible to participate in the NSLP and SBP.

Finding No. 5            For five of the schools in our sample (Turner, Meyer,
Excess Meals Claimed     Wilkinson, Raymond, and Amidon), the SA was
for Reimbursement        reimbursed for more meals than the maximum number it
                         could   claim.      DCPS  was   unable   to   provide
                         documentation to support the excess meals claimed.

                         To determine the number of students eligible to
                         participate in the NSLP and SBP, we made adjustments
                         for duplicate applications, students that were
                         counted twice because they submitted applications and
                         also appeared on the direct certification list, and
                         transfer students that were not accounted for
                         (see Finding No. 3). To determine the maximum number
                         of eligible meals that each school could claim for
                         reimbursement, we multiplied the number of students
                         eligible to participate in the program by the
                         attendance factor as provided on the Weekly Tally
                         reports for October 1995 and October 1996 at each
                         school selected for review (see Finding No. 4).

                         We compared our results showing the maximum number of
                         meals that could be claimed by each school to the
                         number of meals claimed on the Weekly Tally reports
                         for October 1995 and October 1996. We provided our
                         analysis of the overclaims for Turner, Meyer, and
                         Wilkinson schools to SA officials since these schools
                         represented the majority of the overclaims. At the
                         time of our review, Turner had 2,996 overclaimed
                         meals valued at $4,973. The SA later provided




USDA/OIG-A/27010-15-HY     August 1998                                    Page 21
                         additional applications obtained from Turner, which
                         reduced their overclaim to 776 meals, valued at
                         $1,228. Therefore, for the five schools, we found
                         that the SA claimed reimbursement for 4,160 free
                         meals valued at $6,779, and 48 reduced-price meals
                         valued at $60 in excess of the maximum number of
                         meals that could be claimed. (See exhibits A and B).

                         SA   officials   commented   that  transfers   and
                         reconciliations should have been documented.  They
                         also said that more applications might be found at
                         the schools. Officials at Meyer School stated that
                         copies of all applications are provided to the SA,
                         but that it had been their experience that
                         applications were misplaced.

Recommendation           Direct the SA to determine if a claim should be
No. 5                    established for the 4,160 free meals and 48 reduced
                         price meals identified in our review valued at
                         $6,839.




USDA/OIG-A/27010-15-HY    August 1998                                    Page 22
                                     CHAPTER 6 - ISSUE IV
                             PROGRAM MONITORING NEEDS IMPROVEMENT


                         The SA did not adequately monitor SFA operations to
                         ensure that the programs were operating as intended.
                         In addition, the SFA did not perform proper onsite
                         reviews of program activities and did not followup on
                         those   areas   where   deficiencies    were   noted.
                         Monitoring was ineffective, in part, because the two
                         administrative units involved, the SA and the SFA,
                         were not independent in their monitoring and
                         reporting responsibilities.    The lack of adequate
                         monitoring has resulted in reduced assurance that the
                         NSLP and SBP were being operated in accordance with
                         applicable regulations and guidelines.

Finding No. 6            A lack of separation of functions between the SA and
The SA and SFA           the SFA contributed to the ineffective monitoring of
Do Not Operate           NSLP and SBP activities as described in Finding
Independently            No. 7.    According to 7 CFR 210.19, the SA is
                         responsible for ensuring that the SFA administers the
                         two   programs   in   accordance    with   applicable
                         requirements,   and   that   program   integrity   is
                         maintained.     However, administration of these
                         programs in the District of Columbia is unique in
                         that both the SA and the SFA are organizationally
                         located within the same agency, the Division of Food
                         and Nutrition Services (DFNS).

                         DFNS is responsible for (1) providing Federal school
                         lunch,   breakfast,  and   area   special   nutrition
                         programs, (2) managing Federal, State, and local
                         funds, and (3) ensuring regulatory compliance. DFNS
                         is headed by the Chief, Division of Food and
                         Nutrition Services, who also performs in the capacity
                         of SA Director. A review of the organizational chart
                         for DFNS clearly shows that all lines of authority
                         and responsibility for the SA and SFA report to the
                         Chief, Division of Food and Nutrition Services, that
                         is, the SA Director.

                         Daily   operational  activities   within  DFNS   are
                         supervised by the Director of Operations.        The
                         Manager of Field Operations, who reports to the
                         Director of Operations, is responsible for carrying




USDA/OIG-A/27010-15-HY     August 1998                                    Page 23
                         out SFA monitoring requirements, and the manager of
                         a second operations unit, who reports to the same
                         director, is responsible for carrying out SA
                         monitoring   duties.     Requiring   the   officials
                         responsible for both SA and SFA monitoring to report
                         to the same individual does not provide for a
                         separation of duties or for proper oversight of
                         critical NSLP and SBP operations.

                         Program regulations require each SA to sign an
                         agreement with the Food and Nutrition Service, and
                         each SFA to sign an agreement with the SA. For the
                         DCPS, the SFA’s agreement with the SA was signed by
                         the SA Director representing the SA, and DFNS’
                         Manager of Field Operations representing the SFA.
                         Again, the Manager of Field Operations reports to the
                         Director of Operations, who ultimately reports to the
                         SA Director. In our opinion, a separate SA and SFA
                         would   assist   in   ensuring   the   administrative
                         independence of both functions.

                         The    absence    of    adequate     separation    of
                         responsibilities between SA and SFA functions has
                         resulted in a breakdown in the internal controls that
                         are essential to the effective operation of the NSLP
                         and SBP.

Recommendation           Require the SA to develop a comprehensive management
No. 6                    plan that establishes an organizational structure to
                         clearly define the SA’s and SFA’s independence and
                         the separation of administrative, financial, and
                         reporting responsibilities necessary to ensure
                         compliance with NSLP and SBP regulations.

Finding No. 7            The SA had not adequately monitored activities of SFA
The SA Did Not           operations to ensure that onsite school reviews were
Adequately Monitor       performed as required. The SA had also not conducted
SFA Operations           reviews of other SFA program management areas,
                         including program expenditures, program compliance,
                         and allowable costs.      The SA had not developed
                         procedures to review these areas. Consequently, FNS
                         and the SA had reduced assurance that NSLP and SBP
                         operations were functioning as intended.

                         We evaluated SA and SFA administrative reviews,
                         program expenditures, and compliance programs for
                         SY’s 1995 and 1996 to determine whether meal claims
                         were substantiated, costs were allowable, and
                         internal controls were properly functioning. We




USDA/OIG-A/27010-15-HY     August 1998                                    Page 24
                               found that the SA did not have adequate internal
                               control procedures in place.     In the absence of
                               controls,   the  following   SA  program  oversight
                               responsibilities had not been fulfilled.

                                      The SA did not determine the accuracy of
                                      information obtained from the Department of
                                      Human    Resources,    namely,   the    direct
                                      certification list, which was used as a basis
                                      for establishing students’ eligibility for the
                                      NSLP and SBP.6 An SA official stated that this
                                      was the responsibility of individual schools,
                                      but school officials stated that this was the
                                      responsibility of the SA. (See Finding No. 3.)

                                      The SA did not monitor onsite reviews conducted
                                      by the SFA and did not ensure that these
                                      reviews took place. In addition, the SA did
                                      not    ensure    that    the   SFA    conducted
                                      accountability reviews for all meal counting
                                      and claiming systems in the District’s schools.
                                      (See Findings Nos. 2, 3, 4, 5, and 8.)

                                      The SA did not review expenditures, allowable
                                      costs, net cash resources, SFA management
                                      practices, program compliance, fiscal actions
                                      for overclaims, and contract expenditures.
                                      (See Findings Nos. 1, 2, 3, 4, and 5.)

                                      The SA did not ensure the SFA’s compliance with
                                      the requirement to limit its net cash resources
                                      to an amount that does not exceed 3 months
                                      average expenditures from its nonprofit school
                                      food service. We found that in SY 1994, the
                                      NSLP and SBP accounts maintained a balance of
                                      $8,212,000, or $3,746,874 in excess of the 3-
                                      month average expenditure.       In subsequent
                                      school years, the fund balance was not in
                                      excess of the 3-month average expenditure.


Recommendation                 Require the SA to establish written procedures to
No. 7a                         ensure that the SA conducts and documents annual
                               reviews of the SFA’s onsite review program.




      6
          This and the other acts of noncompliance listed on this page are violations of requirements
set                  forth in 7 CFR 210.18 and 210.19.




USDA/OIG-A/27010-15-HY           August 1998                                                Page 25
Recommendation           Require the SA to establish written procedures to
No. 7b                   ensure that SA program monitoring includes an
                         evaluation of SFA expenditures, allowable costs, net
                         cash resources, SFA management practices, contract
                         expenditures, and other required areas of program
                         management and compliance.

Finding No. 8            The SFA had not conducted all of the required onsite
The SFA Did Not          reviews of District of Columbia public schools to
Conduct Reviews of       ensure the accuracy of meal counts prior to the
District of Columbia     submission of the monthly claim for reimbursement.
Public Schools           In addition, for those reviews that had been
                         conducted, we were unable to locate documentation to
                         support any followup or administrative actions taken
                         by the SFA.     Although some onsite reviews had
                         disclosed 5,845 excessive meal claims in SY’s 1995
                         and 1996, no recovery actions were initiated on
                         $9,465 in overclaims.

                         According to 7 CFR 210.8, the SFA is required to
                         establish internal controls to ensure the accuracy of
                         lunch counts prior to the submission of the monthly
                         claim for reimbursement.      At a minimum, these
                         internal controls should include an onsite review of
                         the eligibility of children approved for free and
                         reduced price lunches, the lunch counting and
                         claiming system, and a system for following up on
                         those lunch counts that suggest problems.       Every
                         school year, prior to February 1, the SFA is required
                         to perform at least one onsite review of each school
                         under its jurisdiction.

                         To comply with these requirements, the SFA developed
                         accountability reviews. These reviews covered lunch
                         counts at the point of service, recording and
                         reporting meal counts, and student eligibility.

                         We obtained copies of the accountability reviews
                         completed for SY’s 1995 and 1996.       During these
                         years, there were 161 public schools within the SFA’s
                         jurisdiction where an accountability review should
                         have been conducted. We found that the SFA did not
                         complete all the necessary reviews for either year.

                               For SY 1995, the SFA conducted reviews at 138
                               schools, or 86 percent. Of these 138 reviews,
                               102 were completed before February 1 and 36
                               were completed after February 1. In addition,




USDA/OIG-A/27010-15-HY     August 1998                                    Page 26
                         6 reviews were incomplete or prepared incorrectly,
                         and 68 disclosed problems in either the lunch
                         counting system, recording and reporting meal counts,
                         or student eligibility. Twelve of these 68 reviews
                         disclosed 3,859 overclaimed meals valued at $6,260.

                               In January of SY 1996, the SFA conducted
                               reviews at 80 schools, or 50 percent. Twenty
                               of these reviews were incomplete or prepared
                               incorrectly, and 19 disclosed problems with the
                               lunch counting system, recording and reporting
                               meal counts, or student eligibility. Eight of
                               the 19 reviews disclosed 1,986 overclaimed
                               meals valued at $3,204.

                         Documentation for the 1995 and 1996 reviews did not
                         indicate that the SFA had required a refund for the
                         overclaimed meals.    There was evidence that the
                         findings had been discussed with school officials,
                         but no additional followup actions were documented.

                         FNS officials stated that accountability reviews
                         should have been performed at all schools during SY’s
                         1995 and 1996.    For Provision 3 schools, the SFA
                         should have reviewed the meal component standard to
                         ensure that meals contained the nutritional elements
                         as required by NSLP and SBP regulations.

Recommendation           Direct the SA to require the SFA to develop a system
No. 8a                   to ensure that accountability reviews are timely and
                         accurately completed for all schools, each school
                         year.

Recommendation           Direct the SA to require the SFA to develop a control
No. 8b                   process to ensure that all finding areas are fully
                         documented, and that timely followup actions are
                         taken on all recommendations for improvement or
                         collection.

Recommendation           Direct the SA to require the SFA to refund the
No. 8c                   overclaims identified in accountability reviews,
                         including overclaims totaling $9,465 identified
                         during SY’s 1995 and 1996.




Finding No. 9            Six   of   the   25   SA   school   reviews   we   examined



USDA/OIG-A/27010-15-HY     August 1998                                          Page 27
Coordinated Reviews      identified significant violations in critical areas
Did Not Follow Up On     of school lunch operations, yet only 1 of those
Critical Violations      6 reviews resulted in any followup at the schools to
                         correct the problems. Our review found that for two
                         of these critical areas, meal claims and eligibility,
                         problems remained during our audit fieldwork. In SY
                         1997, 5 schools claimed 4,208 more meals than they
                         had eligible students, and two schools claimed 112
                         more program participants than they had applications
                         on file.

                         Regulations6 require the SA to conduct administrative
                         reviews of all SFA’s at least once during a 5-year
                         review cycle beginning July 1, 1992. Administrative
                         reviews represent the initial comprehensive onsite
                         evaluations of all SFA’s participating in the NSLP
                         and SBP. FNS refers to these administrative reviews
                         as CRE’s. The DCPS SA completed their review cycle
                         during the period between July 1, 1993 and June 30,
                         1995, and included 162 public schools and six private
                         schools. The minimum number of schools the SA could
                         include in its CRE was 15 public schools and all six
                         private schools.7      The SA actually evaluated
                         20 public schools and 5 private schools.

                         CRE’s include a review of "critical areas" of program
                         compliance directly linked to reimbursements, such as
                         eligibility certification, counting, and claiming for
                         Performance Standard 1.     The "critical area" for
                         Performance Standard 2 is meal counting.         Each
                         performance standard has its "review threshold," or
                         degree of error which, if exceeded, triggers a
                         followup review. Review thresholds apply only to the
                         critical areas and are designed to limit followup
                         reviews to those SFA’s with serious problems. The SA
                         is required to notify FNS of the names of large SFA’s
                         exceeding critical area review thresholds. The focus
                         of our review was specific critical areas of
                         Performance Standard 1.




     6
            7 CFR 210.18(c)(1), dated January 1, 1996.

     7
            The number of schools is outlined in Table A of 7 CFR 218(e)(1), which requires the
            SA to review all schools with a free average daily participation of 100 or more and
            a free participation factor of 100 percent or more.




USDA/OIG-A/27010-15-HY      August 1998                                               Page 28
                         Under Performance Standard 1, the review threshold is
                         exceeded for eligibility if 10 percent or more of the
                         free and reduced price lunches at a given number of
                         schools are claimed incorrectly due to errors of
                         certification, benefit issuance, or updating of
                         eligibility status. For counting and claiming, the
                         review threshold is exceeded if three or more schools
                         are found to be inadequate in these areas.

                         Our review of 25 school reviews found critical area
                         violations that exceeded the threshold limitation in
                         1 of the 5 private schools, and 5 of 20 public
                         schools; however, FNS was not notified of these
                         violations as required. The review conducted at the
                         private school identified problems with eligibility
                         certification in more than 10 percent of the
                         applications. In this instance, the file showed that
                         the CRE compliance staff made a followup review and
                         that the problem had been corrected.     The reviews
                         conducted at the five public schools identified
                         inadequate systems of counting and/or claiming.
                         However, the CRE file did not indicate that a
                         followup review sample had been selected or that
                         corrective actions had been taken.         The total
                         overclaim for the five public schools was $6,156.
                         (For followup reviews, a new sample must be selected
                         that includes those schools with inadequate systems,
                         plus additional schools needed to equal the number of
                         schools in the first review sample).

                         We selected a judgmental sample of seven schools
                         (Turner, Wilkinson, Raymond, Meyer, Amidon, Lincoln,
                         and Eastern) to determine compliance with the
                         elements of Performance Standard 1 relating to
                         eligibility certification, counting and claiming. We
                         reviewed meal claims for the months of October 1995
                         and October 1996.8   Our review showed that Turner,
                         Meyer, Wilkinson, Raymond and Amidon schools claimed
                         reimbursement for 4,208 more meals than the number of
                         eligible students enrolled in the program.      These
                         overclaims were not identified as part of the SA’s
                         CRE.




     8
            In school year 1996, Wilkinson, Lincoln, and Raymond were converted to Provision 3
            schools, which are not required to conduct meal counts. Therefore, we only reviewed
            meals claimed at these schools for October 1995.




USDA/OIG-A/27010-15-HY      August 1998                                               Page 29
                         Our review of documentation also showed that
                         Wilkinson claimed to have 711 free and reduced price
                         applications on file; however, our count of
                         applications for Wilkinson totaled 607.       Raymond
                         likewise claimed to have 513 free and reduced price
                         applications on file, but we counted only 505. For
                         Provision 3 schools such as these, since free and
                         reduced price eligibility determinations are not
                         required for a 4-year period, any error in the number
                         of eligible students claimed in 1995 (the base year)
                         is carried over and will have an impact on the
                         accuracy of meals claimed for reimbursements for each
                         subsequent school year.

Recommendation           Require the SA to prepare "supervisory review
No. 9a                   documentation" that shows the recommended and actual
                         resolution of findings and overclaims.

Recommendation           Require the SA to establish controls to ensure that
No. 9b                   FNS is notified, and followup reviews are conducted
                         where critical area violations exceed threshold
                         limitations.

Recommendation           To ensure the accuracy of meals claimed for
No. 9c                   reimbursement, require the SA to review eligibility
                         certifications for all Provision 3 schools in SY’s
                         1995 and 1996, and report the results to FNS.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 30
                                       CHAPTER 7- ISSUE V
                                  IMPROVEMENTS ARE NEEDED IN
                                    CONTRACT ADMINISTRATION


                         Contracts awarded for goods and services in support
                         of the NSLP and SBP are not properly administered.
                         The DCPS did not adhere to its procurement
                         procedures, and did not enforce the terms and
                         conditions of contracts. We question $1,729,424 in
                         unsupported payments to one contractor who did not
                         provide goods and services in accordance with
                         provisions of the contract.    We also question an
                         overpayment of $10,999 and $728,485 in unsupported
                         costs paid for milk products, and $113,548 in NSLP
                         and SBP funds used to pay for salaries of non-food
                         service workers and overtime that exceeded the
                         contract terms.

                         As of April 1997, the District had entered into
                         25 active contracts that were over $10,000 each. Of
                         these contracts, which totalled $20,860,315, we
                         judgmentally selected four food contracts with a
                         total value of $15,781,435, and one milk product
                         contract valued at $1,202,791. These five contracts
                         were selected because of their high dollar value.

                         Two of the contracts were included in our sample
                         because they were awarded during the period that the
                         District of Columbia Financial Responsibility and
                         Management Assistance Authority, known as the Control
                         Board, was in place.        The Control Board was
                         responsible for reviewing the complete bid package
                         that had been submitted by the vendor and approved by
                         the contracting and procurement branch. However, the
                         types of problems identified during our review of
                         contracting procedures would not be detected as part
                         of the Control Board’s review. In addition, current
                         controls in place are not adequate to prevent
                         problems identified in our review from recurring.

                         We reviewed the selected contracts to determine
                         whether they were properly approved, their terms and
                         conditions were met, their stipulated amounts were
                         not exceeded, and the payments made under them were
                         in accordance with procurement procedures.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 31
                         The District entered into a contract with the newly
                         formed Harbor Peak on December 14, 1995, to provide
                         preplated breakfast and lunch menu components to
                         District public schools. The contract was for 1 year
Finding No. 10           with the option for four additional 1-year renewals
Terms And Conditions     based on the appropriation of funds and satisfactory
Of The Contracts         performance. The total value of the contract with
Were Not Met             the renewals was $9,139,110.

                         The SFA Director stated that this contract was in
                         place when she started and was a "fiasco" from the
                         start. She stated that she constantly brought the
                         contractor’s lack of performance to the attention of
                         Procurement Branch officials. The contractor failed
                         to obtain a necessary line of credit and failed to
                         consistently deliver food components called for in
                         the contract.

Contractor Did           According to page 45 of the contract, Item 33(k), the
Not Obtain a Line of     prospective contractor must provide documentation
Credit                   verifying adequate capital assets and resources to
                         procure the food items from suppliers within
                         48 hours. However, as early as December 1995, the
                         contractor had failed to make payments to vendors
                         supplying food for delivery to DCPS. In addition,
                         the contractor is required to have a line of credit
                         of at least $700,000 with a financial institution to
                         exclusively   support   the   contract.      However,
                         correspondence in the SFA contract file and
                         discussions with procurement officials disclosed that
                         this line of credit was not in place when the
                         contract was awarded, nor did they provide it at a
                         later date.   We were unable to determine why this
                         requirement was not enforced.

Contractor Did           Memoranda dating from March 26, 1996, to June 12,
Not Deliver All Food     1996, from the SFA Director to the procurement branch
Components               identified contractor defaults in critical areas,
                         including late delivery and nondelivery of food
                         items, insufficient quantities of food delivered to
                         the   schools,   perishable    foods   delivered   in
                         unrefrigerated trucks, and the delivery of food items
                         that did not appear to be fresh and did not meet
                         program requirements.

                         In her March 26, 1996, memorandum, the SFA Director
                         expressed her concerns about Harbor Peak:




USDA/OIG-A/27010-15-HY     August 1998                                    Page 32
                         "The vendor’s failure to deliver products in
                         compliance with the delivery schedule and instruction
                         clearly violates the contract agreement.         This
                         failure to deliver product as specified will result
                         in the component feeding schools being unable to meet
                         the established USDA school lunch meal pattern
                         requirement.... The Food Services Branch feels that
                         Harbor Peak is not responding properly to its
                         contract obligations, thereby underserving students
                         and forcing the [School District] to expend funds to
                         service the Joint Venture contract as to assure not
                         forfeiting approximately $100,000 in reimbursement."

                         In an April 29, 1996, memorandum, the SFA Director
                         requested an emergency purchase order to pay for food
                         delivered by another vendor as a result of Harbor
                         Peak’s nonperformance of the contract.

                         According to page 41 of the contract, Item 15, if the
                         vendor fails to deliver food in conformance with the
                         specifications,    liquidated    damages    may    be
                         assessed. Correspondence showed that the SFA Director
                         had requested reimbursements in accordance with the
                         liquidated damage clause of the contract, but it did
                         not show that any fines or assessments had been
                         levied prior to August 7, 1996. On August 7, 1996,
                         the SFA assessed fines against the contractor
                         totaling $193,640 for failure to deliver food
                         and equipment from December 15, 1995, through
                         June 7, 1996.

                         In a July 1, 1997, memorandum to the DCPS Chief
                         Executive Officer, Harbor Peak requested release of
                         these funds. As of February 1998, the SA Director
                         stated that they are continuing to withhold payment
                         to the contractor for these assessments.

                         According to contract terms, the District may
                         terminate all or part of the contract if the
                         contractor fails to make delivery and does not cure
                         such failure within a period of 10 days after being
                         put on notice. Harbor Peak received "cure letters"
                         dated March 26 and March 28, 1996, summarizing the
                         unsatisfactory performance.      However, the SFA
                         continued to provide the procurement branch with
                         documentation   which   outlined   the    continuing
                         nondelivery of food items after March 29, 1996.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 33
                         The contract was terminated on June 13, 1996, due to
                         the   contractor’s   inability   to   cure   contract
                         defaults. In November 1996 and October 1997, new
                         contracts were awarded to three vendors to provide
                         preplated breakfasts and lunches to District schools.

Recommendation           Direct the SA to require the SFA to develop controls
No. 10                   to ensure that timely actions are taken against
                         contractors who are not performing in accordance with
                         the terms and conditions of the contract, including
                         assessing liquidated damages.

Finding No. 11           In spite of DCPS procurement procedures, SFA
Contractors Did Not      officials allowed contractors to submit invoices for
Comply With              payment even though the contractors had not obtained
Invoicing Procedures     acknowledgment from school authorities that the
                         deliveries were received by the schools.          Two
                         contractors   submitted   invoices   that   contained
                         calculation errors.    SFA officials did not always
                         detect the errors and were not able to reconcile the
                         invoices to delivery documents to determine if all
                         deliveries were made.    We found invoices for over
                         $2.4 million in deliveries that were not supported by
                         delivery documents.

                         DCPS procurement procedures and the terms of each
                         contract require that the contractor provide an
                         invoice in triplicate for each delivery, with the
                         original to be mailed to the DCPS Food Service
                         Branch. Payments are to be made on a monthly basis
                         after receipt of itemized invoices from the
                         contractor to the receiving activity, and only after
                         performance of the contract in accordance with all
                         provisions.

                         A food service official responsible for handling
                         invoices and shipping documents stated that when a
                         vendor makes deliveries to the school cafeterias, the
                         cafeteria worker performs an inventory of items
                         received and makes corrections on the delivery
                         document as needed. The cafeteria worker signs the
                         delivery document and returns it to the vendor;
                         however, a copy of the delivery document is not
                         maintained by the cafeteria worker or forwarded to
                         the accounting department. The vendor forwards the
                         delivery document and invoice to the SFA.         SFA
                         personnel compare the invoices to the delivery
                         document, and make corrections to the invoice to




USDA/OIG-A/27010-15-HY     August 1998                                    Page 34
                         reflect any differences.   A voucher is prepared and
                         submitted to finance authorizing payment.

                         We reviewed invoices submitted by Harbor Peak and
                         Dairy Maid Dairy to assess the appropriateness of
                         billings and payments to vendors.

Harbor Peak              Harbor Peak submitted approximately 72 invoices for
Joint Venture            food services from December 22, 1995 through June 14,
                         1996, totalling $1,814,915. However, SFA officials
                         were able to provide us with delivery documents that
                         supported only one invoice for $85,491 in deliveries
                         to schools for 5 days (January 5, and January 15-18,
                         1996).     Because   of   the  lack   of   supporting
                         documentation for the remaining 71 invoices, we
                         question the payment of $1,729,424 to Harbor Peak.
                         (See exhibit A.)

                         Our review of the delivery documents available
                         disclosed that they were not always signed by a
                         cafeteria worker. We noted delivery dates that were
                         scratched out and replaced with another date, and
                         notations of "can’t get in" on delivery documents.

                         Harbor Peak did not always submit the delivery
                         documents and invoices at the same time. Therefore,
                         SFA officials did not always perform a reconciliation
                         between   the   delivery   documents   prepared   for
                         each school and the vendor’s invoices prior to
                         forwarding vouchers to the Division of Finance to
                         authorize payment. To date, such reconciliations are
                         still not being performed by the SFA.

                         In February 1996, SFA officials began reviewing
                         invoices submitted by Harbor Peak and found
                         that 51 of the 72 invoices contained errors totaling
                         $51,122. We were unable to verify the accuracy of
                         the SFA’s reviews due to the lack of supporting
                         documentation. The errors were in calculations of
                         unit prices and quantities of items delivered to the
                         schools. As a result, invoices from Harbor Peak were
                         to be adjusted to reflect the billing errors.
                         However, we noted that only $1,469 of the $51,122 was
                         actually offset.

Dairy Maid Dairy         On March 30, 1996, DCPS entered into a contract with
                         Dairy Maid Dairy to provide milk, cream, juice, and
                         related   products.  According   to  the   contract,
                         deliveries were to include approximately 9,000 half




USDA/OIG-A/27010-15-HY     August 1998                                    Page 35
                         pints of milk needed daily for 30 days during June,
                         July, and August to support the Summer Food Service
                         Program for Children.   The estimated value of the
                         contract was $1,202,791.      Total purchases made
                         against the contract amounted to $779,831, of which
                         the vendor had been paid $739,484 at the time of our
                         review.   However, we were not provided with the
                         delivery documents to support the receipt of goods.
                         (See exhibit A.)

                         We reviewed all of the invoices submitted by Dairy
                         Maid to determine if amounts billed were accurately
                         computed and if unit prices were appropriately
                         charged. We found that invoices were submitted for
                         deliveries made "for principal’s conferences," and to
                         Martins, Inc., a vendor that supplied meals
                         in support of the District’s Summer Feeding Program.
                         For these invoices, we found that unit prices charged
                         were in excess of the contract price. We also noted
                         items included in amounts charged that were not
                         in the contract.      We recomputed the invoices,
                         compared them to amounts paid to Dairy Maid, and
                         calculated $10,999 of the $739,484 paid to Dairy Maid
                         as overpayments. (See exhibit A.)

Recommendation           Direct the SA to require the SFA to obtain
No. 11a                  documentation to support payment of $1,729,424 to
                         Harbor Peak, or refund the money to the school food
                         service account.

Recommendation           Direct the SA to require the SFA to obtain
No. 11b                  documentation to support payment of $728,485 to Dairy
                         Maid Dairy, or refund the money to the school food
                         service account.

Recommendation           Direct the SA to require the SFA to recover the
No. 11c                  $10,999 in overpayments made to Dairy Maid Dairy.

Recommendation           Direct the SA to require the SFA to develop written
No. 11d                  procedures for the timely reconciliation of invoices
                         to supporting documentation prior to authorizing
                         payments to contractors.

Recommendation           Direct the SA to require the SFA to develop controls
No. 11e                  to ensure that delivery documents are properly
                         approved by the receiving unit and forwarded
                         independently to the SFA for reconciliation with
                         vendor invoices prior to payment authorization.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 36
Recommendation           Direct the SA to require the SFA to develop
No. 11f                  procedures to ensure that payments are made only for
                         those items identified under the contract, and for
                         the amount cited in the contract.

Recommendation           Require the SA to develop procedures to ensure that
No. 11g                  the SFA maintains documents for a period of 3 years
                         after submission of the final claim for reimbursement
                         for the fiscal year.

Finding No. 12           The SFA Director approved the continued employment of
Payments For Food        temporary food service workers after the amount of
Service Workers          the contract they were employed under ran out after
Exceeded Contract        four months into the school year. Contract services
Amount                   provided under the 1-year contract totaled $971,472
                         and were paid in full, even though the contract was
                         awarded for $340,000. We found that in addition to
                         the $631,472 paid in excess of the original contract
                         amount, $113,548 in NSLP and SBP funds were used to
                         pay the salaries of non-food service workers and for
                         overtime that exceeded the contract terms.       (See
                         exhibit A.) Given the circumstances of this case, we
                         question the use of a 1-year contract as a vehicle to
                         employ temporary workers.

                         Due to a freeze in hiring, the DCPS entered into a
                         1-year $340,000 contract with Potomac Personnel in
                         August 1995 to provide temporary food service
                         employees to work in the DCPS Food Service Branch, or
                         at any of the schools in the system for the upcoming
                         school year.    Multiple purchase orders could be
                         issued against the contract, but only for amounts
                         that did not exceed the total value of the contract.

                         According to 5 CFR 300, subpart 300.503, an agency
                         may enter into a contract with a temporary help
                         service firm for the brief or intermittent use of
                         personnel where the agency must carry out work for a
                         temporary period that cannot be delayed.     Subpart
                         300.504(b) also states that an agency’s use of
                         private sector temporaries shall not exceed an
                         overall duration of 120 calendar days.

                         In October 1995 and January 1996, the procurement
                         branch approved purchase orders for $68,000 and
                         $300,000, respectively, for services provided by
                         Potomac Personnel.   These purchase orders exceeded
                         the contract amount by $28,000. Documentation showed
                         that the SFA Director notified the procurement




USDA/OIG-A/27010-15-HY     August 1998                                    Page 37
                         officer in a December 1995 memorandum that the
                         current contract would require a $1,020,000 addendum
                         to purchase 120,000 man-hours needed to staff the
                         school cafeterias through SY 1996. The SFA Director
                         informed us that the contract hours estimated by the
                         previous director were unrealistic, and that she knew
                         during the initial phase of the contract that
                         services ordered would exceed the contract amount.

                         The procurement officer approved a modification in
                         February 1996 to increase the original contract from
                         $340,000 to $368,000, but he denied the request for
                         the $1,020,000 increase.     Nevertheless, the SFA
                         Director continued to allow Potomac Personnel to
                         provide services totaling $971,472, which exceeded
                         the purchase orders by $603,472.

                         The SFA Director stated that she continued to order
                         temporary workers because they were needed to operate
                         the NSLP and SBP.     The accounts payable manager
                         submitted vouchers to the Division of Finance for
                         payments to Potomac Personnel.     However, payments
                         were withheld by the Division of Finance because the
                         contract amount had been exceeded.

                         In a March 1996 memorandum to the procurement
                         officer, the SFA Director stated that while she did
                         not receive a response to her December 1995
                         memorandum until February 1996, she approved the use
                         of time, and thereby the expenditure, for the
                         temporary workers. She also stated that they were
                         using the Potomac Personnel because they could not
                         fill vacant positions during the hiring freeze, they
                         could not privatize the food services that year, and
                         they could not get the procurement branch to put an
                         addendum on the contract.

                         The procurement officer stated in an April 1996
                         memorandum to the legal branch that it would not be
                         appropriate to increase the Potomac Personnel
                         contract to $1,020,000, and that the SFA Director had
                         not provided a scope of work for a new contract even
                         though Potomac Personnel was continuously providing
                         services. The District finally approved a payment to
                         Potomac Personnel under procedures9 allowing for




     9
            District of Columbia Public School’s Procurement Procedures Manual, chapter 3,
            section 606.4, dated November 1987.




USDA/OIG-A/27010-15-HY     August 1998                                           Page 38
                         "quantum meruit," that is, payment for unauthorized
                         services that are subsequently found to be in the
                         best interests of the school system.     A contract
                         modification was approved in June 1996 to increase
                         the cost to $1,109,183.

                         Our review of the costs incurred under this contract
                         also noted several inappropriate charges made to the
                         NSLP and the SBP. Specifically,

                               $91,187 was used to pay for services provided
                               by non-food service workers, including data
                               entry personnel, a secretary, laborer, payroll
                               clerk, administrative assistant, receptionist,
                               and a supervisor,

                               $13,659 was charged to the contract for work
                               performed during a period prior to the
                               contract’s existence, and

                               $8,702 was paid to food service workers for
                               overtime that was charged at a rate of $12 per
                               hour instead of the $8.50 per hour stated in
                               the contract. Also, these workers exceeded the
                               maximum 6 hours per shift, or 30 hours per
                               week, as allowed by the contract.

                         The SFA Director stated that she was aware that some
                         charges were not in accordance with the contract.
                         The accounts payable manager stated that she knew of
                         employees charged to the contract who were actually
                         working at the Food Services Branch warehouse. The
                         accounts payable manager also stated that the
                         invoices should have been reviewed to determine
                         compliance    with    the   contract    terms    and
                         ensure that the contract amount was not exceeded.
                         However, this review was not performed.

                         Sections 606.1 and 606.3 of Chapter 3 of the DCPS
                         Procurement Manual state that the school system shall
                         not be bound by agreements made by persons to whom
                         procurement authority has not been delegated, and
                         that individuals making unauthorized purchases may
                         become personally liable and subject to other
                         disciplinary action.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 39
Recommendation           Direct the SA to require DCPS to reimburse $113,548,
No. 12a                  to the school food service account, funds used to pay
                         the salaries of non-food service workers and overtime
                         that exceeded the contract terms.

Recommendation           Direct the SA to require the SFA to establish
No. 12b                  procedures to ensure that employees paid from NSLP
                         and SBP funds are performing duties in support of
                         these programs.

Recommendation           Direct the SA to require the SFA to develop
No. 12c                  procedures to ensure that contract modifications are
                         processed in a timely manner to allow service
                         delivery under a valid contract.

Recommendation           Direct the SA to require the SFA to determine the
No. 12d                  legality of using a 1-year contract for temporary
                         workers.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 40
                                      CHAPTER 8 - ISSUE VI
                               CONTROLS OVER PERSONNEL POSITIONS
                                  AND SALARY COST ALLOCATIONS
                                         WERE INADEQUATE

                         Controls   over   the   payment  of   salaries   were
                         insufficient to preclude the use of NSLP and SBP
                         funds to pay for activities that were not in support
                         of the program.     Personnel files did not include
                         personnel documents to support positions and salary
                         costs charged to the NSLP and SBP grants.         SFA
                         officials were unaware of the requirement to perform
                         semiannual reviews of payroll records to ensure that
                         salaries paid to employees were for services
                         performed solely in support of USDA grant activities.
                         Also, employees’ Time and Attendance (T&A) reports
                         were signed and certified as correct by supervisory
                         officials even though the T&A’s did not accurately
                         reflect where the work was performed.

                         We determined that $74,561 in unallowable salary
                         costs were charged to NSLP and SBP grant funds, and
                         State administrative expense (SAE) funds for Child
                         Nutrition Programs.     In addition, $325,184 was
                         charged to the NSLP and SBP for employees who
                         provided services while working in positions that had
                         not been properly approved by the Chief Financial
                         Officer.

                         To review personnel assignments and costs, we used a
                         random numbers table and selected a sample of
                         employees from the 608 food service employees who
                         were paid salaries from NSLP and SBP grant funds and
                         District matching funds in FY 1996.      We selected
                         62 employees    from   5 pay   plans    and   24 job
                         classifications as shown on payroll records and the
                         DCPS Management Information System data base. Our
                         sample included 22 SFA employees who were paid from
                         NSLP and SBP grant funds, 32 employees whose
                         accumulated salaries had a one-time charge against
                         NSLP and SBP grant funds, and 8 employees whose
                         salaries     were    paid    from    District     of
                         Columbia appropriated money and counted towards the
                         State revenue matching requirement.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 41
                         The salaries of two employees who had worked in the
Finding No. 13           DCPS Office of Special Education and Division of
Unallowable Salary       Administrative Services were improperly charged to
Costs Were Charged       the NSLP and SBP grant funds. Payroll documents for
To The NSLP And SBP      these employees did not show a temporary transfer
                         from program to nonprogram duties. The District paid
                         these employees $62,425 from NSLP and SBP funds, and
                         $12,136 from SAE funds for work performed that was
                         not in support of these programs. (See exhibit A.)

                         OMB Circular No. A-87, Attachment A, states that a
                         cost is allocable if the goods or services are
                         chargeable in accordance with relative benefits
                         received. In addition, direct costs are allowable
                         costs chargeable to Federal awards for "compensation
                         of employees for time devoted and identified
                         specifically to the performance of those awards." The
                         District’s Office of Pay and Retirement Agency Time
                         and Attendance Manual states that supervisors’
                         certifications on T&A reports should confirm that the
                         employees performed the services as recorded on
                         the T&A reports, and that the employees’ work
                         location on the T&A report is correct.

                         Employee A worked for the SFA until February 7, 1996,
                         and was detailed to the Office of Special Education,
                         accounts payable branch on February 8, 1996, to
                         handle invoices for services provided to handicapped
                         children in District schools. The SFA approved this
                         detail; however, neither the supervisor at the SFA
                         nor the Office of Special Education processed a
                         personnel action request form reflecting the detail.

                         In addition, employee A’s immediate supervisor at the
                         Office of Special Education certified that all T&A
                         reports were correct even though the T&A showed that
                         the work location was the SFA Food Service warehouse
                         instead of the Goding Building, where the employee
                         actually worked.

                         The employee’s detail lasted from February 8, 1996,
                         until he retired on March 30, 1997.      During this
                         period, employee A was paid $62,425 from the NSLP and
                         SBP grant funds for work performed as an accountant
                         at the Office of Special Education.

                         Employee B worked at the SFA through the pay period
                         ending January 18, 1997.    Effective with the pay
                         period beginning January 19, 1997, the employee was




USDA/OIG-A/27010-15-HY     August 1998                                    Page 42
                         detailed to the Office of Chief Operations Officer,
                         Administrative Services Division, to work in supply
                         acquisitions.      Division officials stated that
                         employee B’s detail was intended to be temporary, and
                         neither of the employee’s immediate supervisors at
                         either the Administrative Services Division or the
                         SFA processed a personnel action request form.
                         However, the division supervisor certified that all
                         T&A reports were correct, even though they showed the
                         Food Service warehouse as the work location instead
                         of the Presidential Building, where the employee
                         actually worked.

                         From the pay period beginning January 19, 1997, to
                         July 19, 1997, the employee was paid $12,136 from SAE
                         funds for work performed at the Office of Chief
                         Operations Officer.

                         Attachment B of the Circular also states that "where
                         employees are expected to work solely on a single
                         Federal award or cost objective, charges for their
                         salaries and wages will be supported by periodic
                         certifications that the employee worked solely on
                         that program for the period covered by the
                         certification.     These certifications should be
                         prepared at least semi-annually, and be signed by the
                         employee or supervisory official having first hand
                         knowledge of the work performed by the employee." In
                         addition, payrolls must be supported by T&A or
                         equivalent records for individual employees.

                         The District of Columbia’s Office of Pay and
                         Retirement Agency Time and Attendance Manual states,
                         in part, that supervisors are to ensure that
                         employees for whom T&A reports are submitted have
                         complied with all requirements for payment.      The
                         supervisor’s certification confirms and asserts that
                         the employees performed the services as recorded on
                         the T&A reports, and that the employees’ work
                         location on the T&A report is correct. According to
                         personnel officials, they were not aware of these
                         regulations.

Recommendation           Direct the SA to require DCPS to refund to the school
No. 13a                  food service account, $62,425 in salary paid to
                         employee A for work performed that was not in support
                         of the NSLP and SBP.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 43
                         Require the SA to refund $12,136 for work performed
Recommendation           by employee B that was not in support of Child
No. 13b                  Nutrition Programs.

Recommendation           Direct the SA to require the SFA to establish
No. 13c                  controls to ensure that personnel files include
                         updated documentation to support positions and salary
                         costs charged to the NSLP and SBP grants.

Recommendation           Direct the SA to require the SFA to establish
No. 13d                  procedures for supervisors to periodically certify
                         that the actual work performed by employees being
                         paid from NSLP and SBP funds is in support of these
                         programs.

Finding No. 14           Personnel positions had not been properly established
Personnel Positions      and approved by the Chief Financial Officer prior to
Had Not Been             being filled. Consequently, $325,184 was charged to
Properly Approved        the NSLP and SBP for employees who provided services
                         while working in unapproved personnel positions.
                         (See exhibit A.)

                         OMB Circular No. A-87, Attachment B, requires that
                         individual employee compensation for personnel
                         services follow an appointment made in accordance
                         with the unit’s laws and rules.

                         DCPS hiring procedures require all managers to fill
                         vacancies by submitting personnel action request
                         forms to the personnel office.      Each request form
                         indicates the funding source for the position and, if
                         appropriate, the grant to be charged. The forms are
                         routed to the Chief Financial Officer for approval of
                         the position and funding.      When the position is
                         approved, an account code is set up which identifies
                         all   employment,    payroll,   and    work  location
                         characteristics of the employee. The Chief Financial
                         Officer is required to certify that the code is
                         correct.

                         During our review, we noted that the personnel files
                         did not always contain the required documents and
                         records.   A current personnel action request form
                         could not be located in 20 of 62 personnel files
                         reviewed. Additionally, the Chief Financial Officer
                         had not certified to the accuracy of the account
                         codes. Therefore, there was no evidence that these
                         20 positions were approved for funding, and NSLP and
                         SBP grant funds should not have been used to pay




USDA/OIG-A/27010-15-HY     August 1998                                    Page 44
                         personnel costs   totaling   $325,184   for   unapproved
                         positions.

                         Personnel units are required to review all personnel
                         files on an annual basis and adjust or correct any
                         missing or inaccurate records at the time of their
                         review. These reviews were inadequate.

Recommendation           Direct the SA to require the SFA to perform a review
No. 14a                  of all food service employees’ personnel files to
                         identify those personnel actions that have not been
                         approved by the Chief Financial Officer.

Recommendation           For any unapproved personnel positions, including
No. 14b                  those disclosed in our review with personnel costs
                         totaling $325,184, require the SA to refund the
                         salaries to FNS or the school food service account,
                         as appropriate.

Recommendation           Require the SA to develop procedures to ensure that
No. 14c                  all personnel actions are properly approved by the
                         Chief Financial Officer.




USDA/OIG-A/27010-15-HY    August 1998                                        Page 45
                                     CHAPTER 9 - ISSUE VII
                             GRANT FUNDS WERE IMPROPERLY USED FOR
                               REDUCTION-IN-FORCE AND RETIREMENT
                                       INCENTIVE PAYMENTS


Finding No. 15           The Division of Finance did not obtain FNS’ approval
                         to charge grant funds for reduction-in-force (RIF)
                         severance payments and retirement incentive payments
                         (RIP). DCPS officials were not aware of procedures
                         requiring approval from FNS before grant funds were
                         used for these payments. As a result, in SY’s 1995,
                         1996 and 1997, $160,210 in NSLP and SBP program funds
                         were paid to former employees for severance and
                         incentive payments. (See exhibit A.)

                         Federal guidance10 states that "abnormal or mass
                         severance pay will be considered on a case-by-case
                         basis and is allowable only if approved by the
                         cognizant Federal Agency."

                         The District’s schools offered a retirement incentive
                         in the form of a cash bonus to employees who retired
                         as of June 30, 1993. The bonus was to be paid in
                         three equal annual installments.       An additional
                         retirement incentive was offered to employees in
                         August 1994 to be paid in 24 equal monthly
                         installments.     In 1996, the District schools
                         implemented a RIF policy and provided severance
                         payments.    Neither the retirement nor the RIF
                         procedures included a requirement that FNS approve
                         the incentive payments on a case-by-case basis.

                         At our request, the SFA provided a list of food
                         service employees who had retired or who had been
                         terminated or forced to resign in SY 1996. For each
                         of these employees, the personnel office provided the
                         date separated, terminated, or retired.      We also
                         obtained the District’s payroll cost report, which
                         showed the payments made to employees receiving RIF
                         pay for each pay period, and we reviewed the
                         District’s "Bonus Book," which showed the payments




     10
            OMB Circular No. A-87, "Cost Principles for     State,   Local,   and   Indian   Tribal
            Governments, attachment B, dated May 4, 1995.




USDA/OIG-A/27010-15-HY     August 1998                                                  Page 46
                         made to employees receiving retirement incentives.
                         We determined that during FY’s 1995 through 1997
                         grant funds were used without FNS approval to provide
                         retirement incentives and RIF bonuses totaling
                         $160,210.


                            TYPE OF SEVERANCE PAYMENT      FISCAL      SUMMARY OF
                                                             YEAR     EXPENDITURES

                                   Easy Out RIP              1995         $2,810.67
                                   Easy Out RIP              1996         21,053.34
                                   Easy Out RIP              1997        116,218.20
                                TOTAL RIP PAYMENTS                       140,082.21
                           TOTAL RIF SEVERANCE PAYMENTS      1997         20,127.78

                              TOTAL DISALLOWED COST                     $160,209.99

Recommendation           Require the SA to obtain FNS’ approval for severance
No. 15a                  payments totaling $160,210, or refund these payments
                         to the school food service account.

Recommendation           Require the SA to incorporate OMB Circular A-87
No. 15b                  requirements into DCPS RIF and RIP policies as they
                         relate to cognizant Federal agency approval of
                         severance payments.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 47
                                 CHAPTER 10 - GENERAL COMMENTS


                         According to 7 CFR 210.5(d)(2), the SA is required to
                         provide a Financial Status Report, SF-269, on a
                         quarterly basis. The SA is also required to submit
                         an Annual Report of Revenues, FCS-13, which
                         identifies the State revenues to be counted toward
                         the State revenue matching requirements.      For SY
                         1996/1997, the minimum amount of revenue match
                         required from the District’s SA was $530,758, which
                         was met.

                         The SA maintains responsibility for ensuring that
                         these documents are submitted timely and accurately
                         in order to continue participating in the program.
                         However, we found that the SF-269’s and FCS-13’s were
                         prepared by the Division of Finance and signed by the
                         controller without being provided to the SA for
                         review prior to being forwarded to FNS.

                         Our review of the FCS-13 for the school year ended
                         June 30, 1996, disclosed that the Division of Finance
                         reported $2,335,392 as the amount to be counted
                         towards the SA’s revenue matching requirement. This
                         included personnel costs from September 1995 through
                         September 1996 totaling $1,463,103, and cafeteria
                         sales of $872,289.    However, the reporting period
                         should have been from September 1995 through June
                         1996, with personnel costs of $1,460,361.          In
                         addition, the cafeteria sales should not have been
                         counted towards the revenue match since funds
                         generated from this activity are considered as part
                         of net cash resources.     Therefore, the $2,335,392
                         reported on the FCS-13 as the revenue match was
                         overstated by $875,031.

                         The SA Director stated that she was aware that
                         cafeteria sales should not have been included as part
                         of the revenue matching requirement and would have
                         corrected this if the FCS-13 had been presented to
                         her for review. The $1,460,361 that the SA actually
                         paid towards the revenue match was sufficient to
                         satisfy the minimum matching requirement.

                         To improve the accuracy of the FCS-13, procedures
                         should be developed to ensure that financial reports




USDA/OIG-A/27010-15-HY     August 1998                                    Page 48
                         related to the NSLP and SBP are reviewed for accuracy
                         by SA officials before being forwarded to FNS.




USDA/OIG-A/27010-15-HY     August 1998                                    Page 49
                            CHAPTER 11 - EXHIBIT A
                          SUMMARY OF MONETARY RESULTS


        Finding
          No.           Description            Amount                   Category

                  Unallowable expenses
                  paid from NSLP and SBP                    Questioned Costs
           1      Funds                        $4,247,700   Recovery Recommended

                  Reimbursements received
                  for Ineligible Meals                      Questioned Costs
           2      Served                          $44,994   Recovery Recommended

                  Excess reimbursement
                  received for free and
                  reduced price meals                       Unsupported Costs
           5      served (See exhibit B)           $6,839   Recovery Recommended



                  Unsupported payments                      Unsupported Costs
          11      made to Harbor Peak          $1,729,424   Recovery Recommended




                  Unsupported payments                      Unsupported Costs
          11      made to Dairy Maid Dairy       $728,485   Recovery Recommended




                  Overpayments made to                      Questioned Costs
          11      Dairy Maid Dairy                $10,999   Recovery Recommended


                  Salaries paid to non-
                  food service workers and                  Questioned Costs
          12      excessive overtime             $113,548   Recovery Recommended

                  Salaries paid to
                  employees for work
                  performed that was not
                  in support of the NSLP                    Questioned Costs
          13      and SBP                         $74,561   Recovery Recommended



                  Unapproved Personnel                      Unsupported Costs
          14      Positions                      $325,184   Recovery Recommended



                  Unapproved Severance                      Unsupported Costs
          15      Payments                       $160,210   Recovery Recommended

                                      TOTAL:   $7,452,943




USDA/OIG-A/27010-15-HY       August 1998                                           Page 50
                                CHAPTER 12 - EXHIBIT B
                            EXCESS REIMBURSEMENT RECEIVED
                          FOR FREE AND REDUCED PRICE MEALS

SCHOOL:     RAYMOND

                            FREE LUNCHES   OIG’S COUNT OF                 OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR   CLAIMED PER WEEKLY    ELIGIBLE FREE    FREE MEALS       @ $1.6225 PER
     OCTOBER 1995           TALLY REPORT     APPLICATIONS   OVERCLAIMED            FREE MEAL

            2                        500              468            32               $51.92

            3                        490              468            22               $35.70

            4                        500              468            32               $51.92

            5                        500              468            32               $51.92

            6                        500              468            32               $51.92

           10                        500              468            32               $51.92

           11                        500              468            32               $51.92

           12                        500              468            32               $51.92

           13                        490              468            22               $35.70

           16                        350              468             0               $0.00

           17                        485              468            17               $27.58

           18                        435              468             0               $0.00

           19                        444              468             0               $0.00

           20                        444              468             0               $0.00

           23                        440              468             0               $0.00

           24                        443              468             0               $0.00

           25                        450              468             0               $0.00

           26                        440              468             0               $0.00

           27                        445              468             0               $0.00

           30                        450              468             0               $0.00

           31                        450              468             0               $0.00

          Total                                                     285             $462.42




USDA/OIG-A/27010-15-HY           August 1998                                           Page 51
                                 CHAPTER 12 - EXHIBIT B
                             EXCESS REIMBURSEMENT RECEIVED
                           FOR FREE AND REDUCED PRICE MEALS


SCHOOL:     WILKINSON

                              FREE LUNCHES   OIG’S COUNT OF                 OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR     CLAIMED PER WEEKLY    ELIGIBLE FREE    FREE MEALS       @ $1.6225 PER
     OCTOBER 1995             TALLY REPORT     APPLICATIONS   OVERCLAIMED            FREE MEAL

           2                           610              575            35              $56.79

           3                           658              575            83             $134.67

           4                           652              575            77             $124.93

           5                           633              575            58              $94.11

           6                           638              575            63             $102.22

           10                          627              575            52              $84.37

           11                          620              575            45              $73.01

           12                          613              575            38              $61.66

           13                          617              575            42              $68.15

           16                          139              575             0               $0.00

           17                          621              575            46              $74.64

           18                          613              575            38              $61.66

           19                          616              575            41              $66.52

           20                          602              575            27              $43.81

           23                          621              575            46              $74.64

           24                          622              575            47              $76.26

           25                          608              575            33              $53.54

           26                          612              575            37              $60.03

           27                          614              575            39              $63.28

           30                          620              575            45              $73.01

           31                          601              575            26              $42.19

          Total                                                    918.00           $1,489.49




USDA/OIG-A/27010-15-HY            August 1998                                         Page 52
                               CHAPTER 12 - EXHIBIT B
                           EXCESS REIMBURSEMENT RECEIVED
                         FOR FREE AND REDUCED PRICE MEALS


SCHOOL:     AMIDON

                            FREE LUNCHES   OIG’S COUNT OF                 OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR   CLAIMED PER WEEKLY    ELIGIBLE FREE    FREE MEALS         @ $1.66 PER
     OCTOBER 1996           TALLY REPORT     APPLICATIONS   OVERCLAIMED            FREE MEAL

           1                         229              226             3               $4.98

           2                         230              226             4               $6.64

           3                         228              226             2               $3.32

           4                         217              226             0               $0.00

           7                         201              226             0               $0.00

           8                         199              226             0               $0.00

           9                         202              226             0               $0.00

           10                        204              226             0               $0.00

           11                        203              226             0               $0.00

           15                        212              226             0               $0.00

           16                        201              226             0               $0.00

           17                        227              226             1               $1.66

           18                        205              226             0               $0.00

           21                        214              226             0               $0.00

           22                        214              226             0               $0.00

           23                        214              226             0               $0.00

           24                        214              226             0               $0.00

           25                        214              226             0               $0.00

           28                        221              226             0               $0.00

           29                        220              226             0               $0.00

           30                        217              226             0               $0.00

           31                        220              226             0               $0.00

          Total                                                      10              $16.60




USDA/OIG-A/27010-15-HY          August 1998                                         Page 53
                               CHAPTER 12 - EXHIBIT B
                           EXCESS REIMBURSEMENT RECEIVED
                         FOR FREE AND REDUCED PRICE MEALS


SCHOOL:     AMIDON

                            FREE LUNCHES   OIG’S COUNT OF                 OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR   CLAIMED PER WEEKLY    ELIGIBLE FREE    FREE MEALS        @ $1.6225 PER
     OCTOBER 1995           TALLY REPORT     APPLICATIONS   OVERCLAIMED            FREE MEAL

           2                         230              219            11              $17.85

           3                         227              219             8              $12.98

           4                         224              219             5               $8.11

           5                         195              219             0               $0.00

           6                         199              219             0               $0.00

           10                        225              219             6               $9.74

           11                        229              219            10              $16.23

           12                        211              219             0               $0.00

           13                        205              219             0               $0.00

           16                        123              219             0               $0.00

           17                        211              219             0               $0.00

           18                        211              219             0               $0.00

           19                        198              219             0               $0.00

           20                        208              219             0               $0.00

           23                        224              219             5               $8.11

           24                        229              219            10              $16.23

           25                        230              219            11              $17.85

           26                        229              219            10              $16.23

           27                        231              219            12              $19.47

           30                        217              219             0               $0.00

           31                        220              219             1               $1.62

          Total                                                      89             $144.42




USDA/OIG-A/27010-15-HY          August 1998                                         Page 54
                               CHAPTER 12 - EXHIBIT B
                           EXCESS REIMBURSEMENT RECEIVED
                         FOR FREE AND REDUCED PRICE MEALS


SCHOOL:     TURNER

                            FREE LUNCHES   OIG’S COUNT OF                 OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR   CLAIMED PER WEEKLY    ELIGIBLE FREE    FREE MEALS         @ $1.66 PER
    OCTOBER 1996            TALLY REPORT     APPLICATIONS   OVERCLAIMED            FREE MEAL

           1                         590              508            82             $136.12

           2                         543              508            35              $58.10

           3                         555              508            47              $78.02

           4                         549              508            41              $68.06

           7                         559              508            51              $84.66

           8                         520              508            12              $19.92

           9                         532              508            24              $39.84

           10                        568              508            60              $99.60

           11                        551              508            43              $71.38

           15                        513              508             5               $8.30

           16                        549              508            41              $68.06

           17                        510              508             2               $3.32

           18                        420              508             0               $0.00

           21                        506              508             0               $0.00

           22                        562              508            54              $89.64

           23                        528              508            20              $33.20

           24                        529              508            21              $34.86

           25                        515              508             7              $11.62

           28                        548              508            40              $66.40

           29                        566              508            58              $96.28

           30                        569              508            61             $101.26

           31                        580              508            72             $119.52

          TOTAL                                                     776           $1,288.16




USDA/OIG-A/27010-15-HY          August 1998                                         Page 55
                             CHAPTER 12 - EXHIBIT B
                         EXCESS REIMBURSEMENT RECEIVED
                       FOR FREE AND REDUCED PRICE MEALS


SCHOOL:     TURNER

                         REDUCED PRICE
                       LUNCHES CLAIMED       OIG’S COUNT OF                       OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR   PER WEEKLY TALLY     ELIGIBLE REDUCED       REDUCED PRICE          @ $1.26 PER
     OCTOBER 1996               REPORT   PRICE APPLICATIONS   MEALS OVERCLAIMED   REDUCED PRICE MEAL

           1                         0                    1                   0               $0.00

           2                         0                    1                   0               $0.00

           3                         0                    1                   0               $0.00

           4                         0                    1                   0               $0.00

           7                         5                    1                   4               $5.04

           8                         5                    1                   4               $5.04

           9                         6                    1                   5               $6.30

           10                        5                    1                   4               $5.04

           11                        3                    1                   2               $2.52

           15                        0                    1                   0               $0.00

           16                        0                    1                   0               $0.00

           17                        1                    1                   0               $0.00

           18                        1                    1                   0               $0.00

           21                        2                    1                   1               $1.26

           22                        2                    1                   1               $1.26

           23                        2                    1                   1               $1.26

           24                        1                    1                   0               $0.00

           25                        3                    1                   2               $2.52

           28                        3                    1                   2               $2.52

           29                        3                    1                   2               $2.52

           30                        3                    1                   2               $2.52

           31                        3                    1                   2               $2.52

          TOTAL                                                              32              $40.32




USDA/OIG-A/27010-15-HY        August 1998                                                   Page 56
                             CHAPTER 12 - EXHIBIT B
                         EXCESS REIMBURSEMENT RECEIVED
                       FOR FREE AND REDUCED PRICE MEALS


SCHOOL:     MEYER

                         REDUCED PRICE
                       LUNCHES CLAIMED       OIG’S COUNT OF                       OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR   PER WEEKLY TALLY     ELIGIBLE REDUCED       REDUCED PRICE        @ $1.2225 PER
     OCTOBER 1995               REPORT   PRICE APPLICATIONS   MEALS OVERCLAIMED   REDUCED PRICE MEAL

           2                         6                    9                   0               $0.00

           3                         6                    9                   0               $0.00

           4                         6                    9                   0               $0.00

           5                         0                    9                   0               $0.00

           6                         0                    9                   0               $0.00

           10                        9                    9                   0               $0.00

           11                       10                    9                   1               $1.22

           12                       12                    9                   3               $3.67

           13                       11                    9                   2               $2.45

           16                        2                    9                   0               $0.00

           17                       10                    9                   1               $1.22

           18                        9                    9                   0               $0.00

           19                        3                    9                   0               $0.00

           20                        5                    9                   0               $0.00

           23                        0                    9                   0               $0.00

           24                       10                    9                   1               $1.22

           25                       12                    9                   3               $3.67

           26                        8                    9                   0               $0.00

           27                        8                    9                   0               $0.00

           30                       14                    9                   5               $6.11

           31                        5                    9                   0               $0.00

          Total                                                              16              $19.56




USDA/OIG-A/27010-15-HY        August 1998                                                   Page 57
                             CHAPTER 12 - EXHIBIT B
                         EXCESS REIMBURSEMENT RECEIVED
                       FOR FREE AND REDUCED PRICE MEALS


SCHOOL:     MEYER

                            FREE LUNCHES    OIG’S COUNT OF                 OVERCLAIMED AMOUNT
  CALENDAR DAYS FOR   CLAIMED PER WEEKLY     ELIGIBLE FREE    FREE MEALS        @ $1.6225 PER
     OCTOBER 1995           TALLY REPORT      APPLICATIONS   OVERCLAIMED            FREE MEAL

           2                         459               369            90              $146.03

           3                         457               369            88              $142.78

           4                         461               369            92              $149.27

           5                         475               369           106              $171.99

           6                         470               369           101              $163.87

           10                        501               369           132              $214.17

           11                        478               369           109              $176.85

           12                        500               369           131              $212.55

           13                        497               369           128              $207.68

           16                        211               369             0                $0.00

           17                        501               369           132              $214.17

           18                        492               369           123              $199.57

           19                        429               369            60               $97.35

           20                        469               369           100              $162.25

           23                        479               369           110              $178.48

           24                        472               369           103              $167.12

           25                        475               369           106              $171.99

           26                        446               369            77              $124.93

           27                        489               369           120              $194.70

           30                        472               369           103              $167.12

           31                        440               369            71              $115.20

          Total                                                    2,082            $3,378.07




USDA/OIG-A/27010-15-HY        August 1998                                                  Page 58
                            CHAPTER 13 - EXHIBIT C
                      COMPARISON BETWEEN FNS 10 REPORT,
                             WEEKLY TALLY REPORT,
                             AND TRANSMITTAL FORM


                                                                  WEEKLY
                                                      FNS 10      TALLY
       SCHOOL         MONTH          DATA REPORTED    REPORT      REPORT         TRANSMITTAL FORM

       Amidon         Oct 1996       Enrollment       409         402*           409

       Turner         Oct 1996       Enrollment       661         661            661

       Meyer          Oct 1996       Enrollment       615         602*           609*

       Eastern        Oct 1996       Enrollment       1,654       1,512*         1,654

       Amidon         Oct 1996       Approved Free    221         223*           221

       Turner         Oct 1996       Approved Free    622         653*           672*

       Meyer          Oct 1996       Approved Free    593         572*           583*

       Eastern        Oct 1996       Approved Free    841         500*           841

       Amidon         Oct 1995       Enrollment       396         437*           396

       Turner         Oct 1995       Enrollment       683         683            683

       Meyer          Oct 1995       Enrollment       585         587*           585

       Eastern        Oct 1995       Enrollment       1,653       1,653          Blank_2_/


       Wilkinson      Oct 1995       Enrollment       727         727            None_1_/


       Raymond        Oct 1995       Enrollment       640         640            640

       Lincoln/Bell   Oct 1995       Enrollment       1,149       1,149          1,149

       Amidon         Oct 1995       Approved Free    276         249*           276

       Turner         Oct 1995       Approved Free    516         660*           516*

       Meyer          Oct 1995       Approved Free    375         561*           375

       Eastern        Oct 1995       Approved Free    500         500            683*


       Wilkinson      Oct 1995       Approved Free    693         693            None_1_/


       Raymond        Oct 1995       Approved Free    491         491            491

       Lincoln/Bell   Oct 1995       Approved Free    628         761*           628

          * - Indicates a discrepancy with data reported on the FNS-10 report.
       _1_/ - Transmittal Form could not be located.
       _2_/ - Enrollment not recorded on Transmittal Form.




USDA/OIG-A/27010-15-HY           August 1998                                                        Page 59
                            CHAPTER 14 - EXHIBIT D
                                  AUDIT SITES



                               AUDIT SITES VISITED


 FNS Mid-Atlantic Regional Office            Robbinsville, New Jersey

 District of Columbia Public Schools’ SFA    Washington, D.C.

 District of Columbia Public Schools’ SA     Washington, D.C.

 District of Columbia Public Schools
 Office of the Chief Financial Officer       Washington, D.C.

 District of Columbia Public Schools
 Office of the Chief Operating Officer       Washington, D.C.

 Turner Elementary School                    Washington, D.C.

 Wilkinson Elementary School                 Washington, D.C.

 Raymond Elementary School                   Washington, D.C.

 Meyer Elementary School                     Washington, D.C.

 Amidon Elementary School                    Washington, D.C.

 Lincoln Junior High School                  Washington, D.C.

 Eastern Senior High School                  Washington, D.C.




USDA/OIG-A/27010-15-HY     August 1998                                  Page 60
USDA/OIG-A/27010-15-HY   August 1998   Page 61
                         CHAPTER 16 - ABBREVIATIONS


CEO               Chief Executive Officer

CFR               Code of Federal Regulations

CRE               Coordinated Review Effort

DCPS              District of Columbia Public Schools

DHS               Department of Human Services

DFNS              Division of Food And Nutrition Services

FNS               Food and Nutrition Service

FY                Fiscal Year

MARO              FNS Mid-Atlantic Regional Office

NSLP              National School Lunch Program

OIG               Office of Inspector General

RIF               Reduction-In-Force

RIP               Retirement Incentive Payments

SA                State Agency

SAE               State Administrative Expenses

SBP               School Breakfast Program

SFA               School Food Authority

SIS               Student Information System

T&A               Time and Attendance

USDA              U.S. Department of Agriculture




USDA/OIG-A/27010-15-HY    August 1998                       Page 62
